<html>
<title> - TARGET WASHINGTON: COORDINATING FEDERAL HOMELAND SECURITY EFFORTS WITH LOCAL JURISDICTIONS IN THE NATIONAL CAPITAL REGION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





TARGET WASHINGTON: COORDINATING FEDERAL HOMELAND SECURITY EFFORTS WITH 
           LOCAL JURISDICTIONS IN THE NATIONAL CAPITAL REGION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2004

                               __________

                           Serial No. 108-190

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-626                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 24, 2004....................................     1
Statement of:
    Griffin, Anthony H., county executive, Fairfax County; Mary 
      Beth Michos, fire chief, Prince William County; James 
      Schwartz, director of emergency management, Arlington 
      County; and Jacqueline F. Brown, chief administrative 
      officer, Prince George's County............................    85
    Lockwood, Thomas, Director, Office of National Capital Region 
      Coordination, Department of Homeland Security; William 
      Jenkins, Director, Homeland Security and Justice Issues, 
      General Accounting Office; George Foresman, assistant to 
      the Governor for commonwealth preparedness, Commonwealth of 
      Virginia; Dennis Schrader, director, Office of Homeland 
      Security, State of Maryland; and Barbara Childs-Pair, 
      director, D.C. Emergency Management Agency.................    25
Letters, statements, etc., submitted for the record by:
    Brown, Jacqueline F., chief administrative officer, Prince 
      George's County, prepared statement of.....................   109
    Childs-Pair, Barbara, director, D.C. Emergency Management 
      Agency, prepared statement of..............................    65
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................   123
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................   125
    Foresman, George, assistant to the Governor for commonwealth 
      preparedness, Commonwealth of Virginia, prepared statement 
      of.........................................................    50
    Griffin, Anthony H., county executive, Fairfax County, 
      prepared statement of......................................    88
    Jenkins, William, Director, Homeland Security and Justice 
      Issues, General Accounting Office, prepared statement of...    34
    Lockwood, Thomas, Director, Office of National Capital Region 
      Coordination, Department of Homeland Security, prepared 
      statement of...............................................    27
    Michos, Mary Beth, fire chief, Prince William County, 
      prepared statement of......................................    93
    Moran, Hon. James P., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    21
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........    14
    Schrock, Hon. Edward L., a Representative in Congress from 
      the State of Virginia, prepared statement of...............    18
    Schwartz, James, director of emergency management, Arlington 
      County, prepared statement of..............................   100
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     7

 
TARGET WASHINGTON: COORDINATING FEDERAL HOMELAND SECURITY EFFORTS WITH 
           LOCAL JURISDICTIONS IN THE NATIONAL CAPITAL REGION

                              ----------                              


                        THURSDAY, JUNE 24, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:20 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis of 
Virginia (chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Mica, Ose, 
Schrock, Waxman, Maloney, Cummings, Tierney, Clay, Watson, Van 
Hollen, Ruppersberger, and Norton.
    Also present: Representative Moran of Virginia.
    Staff present: David Marin, deputy staff director and 
communications director; Ellen Brown, legislative director and 
senior policy counsel; Robert Borden, counsel and 
parliamentarian; Rob White, press secretary; Drew Crockett, 
deputy director of communications; Brian Stout, professional 
staff member; Teresa Austin, chief clerk; Brien Beattie, deputy 
clerk; Robin Butler, financial administrator; Allyson 
Blandford, office manager; Rosalind Parker, minority counsel; 
David McMillen, minority professional staff member; Earley 
Green, minority chief clerk; and Jean Gosa, minority assistant 
clerk.
    Chairman Tom Davis. Good morning.
    The committee will come to order. A quorum appears to be 
present.
    I want to welcome everyone to today's hearing entitled, 
``Target Washington: Coordinating Federal Homeland Security 
Efforts with Local Jurisdictions in the National Capital 
Region.'' We have a good regional group here today.
    This hearing is the committee's third in our series on 
emergency preparedness in the NCR. Following last year's 
hearings, the committee asked the General Accounting Office to 
examine the budget and spending plans for the National Capital 
Region in hope that it would help Congress identify whether 
this region is sufficiently funded and whether the funds were 
being used effectively and efficiently. We are here today to 
examine the findings and to bring the key components of our 
regional homeland security efforts together to identify what 
has been done and what work remains.
    The tragic events of September 11, 2001 unfortunately 
confirm the recognition of the National Capital Region as a top 
terrorist target. The primary obligation of any government is 
the safety and security of its citizens and we have been acting 
on many fronts to fulfill this obligation.
    The Federal Government and local Washington area 
jurisdictions have taken a number of actions to strengthen our 
ability to prevent and respond to emergencies and in the 
National Capital Region, this requires the highest level of 
coordination. The National Capital Region has to be the most 
prepared in the Nation. It is the home to 12 local 
jurisdiction, two States, the District of Columbia, the Federal 
Government, including the White House, the Congress and the 
Supreme Court. This is not an easy task for a region that has 
multiple police forces and emergency plans.
    Recognizing the unique nature of the region and the need 
for a high level of coordination, Congress created the Office 
for National Capital Region Coordination within the Department 
of Homeland Security. This office was created to coordinate 
activities between the various entities in the region, to 
ensure the preparedness programs and activities are developed 
and evaluated under appropriate standards and to ensure that 
resources are allocated so as to improve and sustain regional 
preparedness.
    The ONCRC has an important role in setting goals and 
priorities and assisting States and local jurisdictions to 
think, plan and prepare regionally. In fiscal years 2002 and 
2003, the Federal Government appropriated approximately $340 
million for homeland security efforts in the region. It is our 
understanding that all of the fiscal year 2004 urban area 
funding totaling $23.9 million, as well as portions of prior 
year funding have yet to be obligated. The time has come to ask 
difficult questions so that we can determine what is the road 
ahead. Congress has dramatically increased funding for these 
efforts over the last few years but have we increased our 
capabilities and preparedness as a region? What have we done 
with the Federal funding to date? How are the funding decisions 
for the region made? How do we enhance preparedness? What is 
the remaining gap and how do we intend to close it?
    Some Members of Congress as well as some State and local 
officials have contended that funds provided for first 
responders have been insufficient. This has been an incomplete 
discussion, however, because in order to determine funding 
needs, we have to have a full and accurate assessment of where 
we are and where we need to be. It is readily apparent that we 
need to move away from the generalities when speaking of 
emergency preparedness and coordination and talk specifics.
    General strategies are a beginning but they must transfer 
into specific road maps for local, State, Federal and private 
sector actions. Yesterday, the infamous Tractor Man who 
effectively held this region hostage for 2 days in March 2003 
was sentenced to 6 years in prison. Justice was served. We are 
here again today asking if we are better prepared for prime 
time. We are here today wondering whether or how preparedness 
has improved in the past 14 months. It is my hope that this 
hearing will further this discussion and in doing so, will help 
Congress, the Department of Homeland Security and the 
localities within the NCR to set a mutually agreed upon 
baseline capability, identify the gaps, set priorities and 
measure progress.
    The bottom line is that the funding needs of the region and 
the Nation are nearly infinite and therefore, it is of the 
utmost importance to structure the manner in which we go about 
fulfilling needs. In its testimony today, the General 
Accounting Office lays out the general challenges that the 
region faces in coordinating and managing emergency 
preparedness in our region. GAO's conclusions are troubling but 
not terribly surprising given the complexity of the task at 
hand. An earlier draft of the GAO report noted the vacancy at 
the top of the Office of National Capital Region Coordination 
is a contributing factor to the challenges we are facing. I am 
glad to see that the position has now been filled and that Mr. 
Lockwood is here today to share his vision for improving 
planning and coordination.
    We have two impressive panels of witnesses before us to 
help us understand the issues surrounding this important topic. 
I would like to thank all of our witnesses for appearing before 
the committee and I look forward to their testimony.
    I now yield to my ranking member, Mr. Waxman, for his 
opening statement.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T5626.001
    
    [GRAPHIC] [TIFF OMITTED] T5626.002
    
    Mr. Waxman. Thank you, Mr. Chairman.
    I am pleased the committee is holding today's hearing on 
the Emergency Readiness in the National Capital Region. 
Ensuring preparedness in this region is particularly 
challenging given the severity of threats facing the area and 
the range of Federal, State and local entities involved in 
responding to the threats across jurisdictional lines. This 
committee should do everything it can to promote optimal 
coordination of these efforts.
    Just 2 weeks ago, we saw how quickly communications can 
break down in an emergency. The appearance of an unidentified 
airplane in restricted air space resulted in panic in the 
Capitol and confusion among responders. It is my understanding 
that the Mayor was not notified until after the threat was 
resolved.
    The challenges of coordinating the activities of the 
multiple and overlapping jurisdictions in the National Capital 
Region are severe. So too are the consequences if we fail to 
meet those challenges. Today, the General Accounting Office 
will tell us that we don't have a good measure of the 
collective capacity of these jurisdictions to respond to an 
emergency. Nor do we have a good sense of what should be their 
capacity. Without these essential benchmarks, where are we and 
where do we need to be, it is impossible to devise a plan to 
get from one to the other. I am hopeful that this hearing will 
lead to a better understanding of these benchmarks.
    I want to note that Congresswoman Norton of our committee 
has been tireless in her work to advance National Capital 
Region emergency preparedness. Her keen understanding of the 
deficiencies in planning and coordination of effort led her to 
write the original amendment that laid the foundation for the 
Office of National Capital Region Coordination, now directed by 
Mr. Lockwood, one of our witnesses today.
    I want to welcome the distinguished witnesses who I know 
have devoted a lot of time and energy to regional preparedness. 
Your work may help prevent serious harm to many citizens of 
this area. Indeed, it may have already done so. I know I speak 
for many others in telling you how much I appreciate your 
commitment to this effort.
    Finally, I want to commend Chairman Davis for having this 
hearing and for his strong interest in homeland security 
issues.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T5626.003
    
    [GRAPHIC] [TIFF OMITTED] T5626.004
    
    [GRAPHIC] [TIFF OMITTED] T5626.005
    
    Chairman Tom Davis. Thank you very much.
    Are there any statements on our side? Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I appreciate this hearing and I think you called it at a 
time when it is fair to look at the regional office. We did not 
call this hearing when it just had been created, we are now 
more than 2 years, probably going on 3 years.
    I also want to say my concerns come against a background 
that has taught me not to do Monday morning quarterbacking, 
about why didn't we do this. I think the homeland security 
business is a startup business for the country. My own work on 
the Homeland Security Committee and on the Aviation 
Subcommittee certainly taught me that. For example, we were 
very critical on the Homeland Security Committee of spending 
but when we probed it, we learned that much of that was because 
the States had difficulties in their own procedures about how 
to gear up for the money that came out of this Congress in one 
huge tranche after September 11.
    I certainly have not expected anything like perfection from 
this office. I have to tell you that when it comes to 
coordination, I have had a tougher standard because we did 
foresee the coordination problem in this committee. As the 
ranking member indicated, my own amendment for a coordinator 
was strongly supported on both sides of this committee and the 
administration itself not wanting to add to the expenses had 
compunctions but ultimately the administration accepted the 
notion that for the National Capital Region area where there 
are 600,000 people in this city, 2 million in the region and 
where the entire Federal presence is located, there needs to be 
special attention. We have the most at stake in the entire 
country and we are all aware of this.
    So, in this region alone, the Federal Government pays for a 
regional coordinator. I was sufficiently impressed by at least 
some of what I have been hearing from that office that I have 
since sponsored an amendment that is included again in a 
bipartisan bill coming out of the Homeland Security Committee 
for regional coordinators paid for however by the States in 
order to essentially model on what we have done here and today, 
we look and see what that model has done.
    A very large amount of money in my district alone was 
tracked. I know that OMB, for example, called the District 
often about whether or not it was spending on a quarterly 
basis. Sometimes they got it wrong. I called the District and 
would have to call back, you were wrong, we have spent.
    When it comes to the region, the concern is not are you 
spending the money we have, but are you duplicating what one 
another is doing, are you buying the same things across 
regions, are you saving money, are you coordinating? Is 
somebody looking at the big picture, because the obligation of 
the Government of the District of Columbia, of Maryland and of 
Virginia is to be parochial. They are supposed to look and see 
whether or not they are doing their job. The whole point here 
was for somebody to help them understand the dependence of the 
entire region, one on another. We don't have a WMATA board when 
it comes to homeland security, the whole thing is together. 
That is essentially what this new post was supposed to do.
    As I see it, this is a headquarters issue. This is an 
administration issue. First of all, the vacancy that was there 
for so long, a 5-month vacancy was absolutely inexcusable and 
scary, frankly. I don't think there was any shortage of people 
to fill. We have already filled it now with somebody from the 
region. There were all kinds of people in headquarters who 
could have filled it. I have a problem with that. It became 
such a problem for the region that the region sent a letter 
saying, please fill this vacancy. I would note that Mr. Ridge 
is prescribing remedies for regions across the country now, 
indicating that this is a headquarters problem, remedies like 
purchasing together on a multi-jurisdictional basis and having 
agreement to do so.
    Initially after September 11, anyone can understand the do 
something mentality, spend some money, do something, show 
something but we were supposed to avoid that with coordination. 
The GAO report raises some considerable difficulties about that 
coordination. We have to get to the bottom of that, 
particularly since the Secretary himself in testifying before 
the Homeland Security Committee when I asked him about 
coordination in the regions that do not have a coordinator has 
been quick to say that we are pleased with what we see in the 
National Capital Region and we want to model that over the 
country. So for me, the question will be, is there a model here 
to send to the rest of the country.
    Thank you again, Mr. Chairman, for this hearing.
    Chairman Tom Davis. Thank you very much.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Let me thank you for holding another in a series of 
hearings on the very important issue of security in the 
National Capital area. I have pleased we have Mr. Schrader, 
director of Maryland's Homeland Security Office here. I am also 
especially pleased that the administration has now filled the 
position of the Director for the National Capital Region 
Coordination Office. Welcome, Mr. Lockwood, and welcome from 
the State of Maryland where you were also very involved and 
thank you for your leadership there. I do think we lost 
valuable time in the 5-month interlude between Mr. Michael 
Byrne's resignation and your taking over in this position. I 
hope we can catch up for time lost.
    I think as a Nation when you do approach this issue with 
two things in mind, one, we need to focus our resources on 
those areas in this country that are most at risk. Of course 
the National Capital area is among the top targets in that 
regard. Second, within those areas, we need to make sure that 
our resources are spent wisely and that they are well 
coordinated. The GAO report that we are going to be hearing 
more about today raises some very serious questions about 
whether or not we have done an adequate job of that in the many 
months since the creation of the office of the coordinator and 
focusing on these issues. I look forward to that report and 
thank them for looking into this because I think if we want to 
maintain the confidence of people in this region and around the 
country in our efforts, we have to show that these funds, first 
of all, are going to areas of greatest need and second, within 
those areas, the funds are being well spent.
    I thank all of you for being here and, Mr. Chairman, thank 
you again for holding the hearing.
    Chairman Tom Davis. Thank you.
    Any other opening statements? We will just go straight 
down, Ms. Watson and Mr. Ruppersberger.
    Ms. Watson. Thank you, Mr. Chairman, for this hearing.
    I have just a comment and then a few references to the GAO 
report.
    My comment is this, that we are embarking in a direction 
that is absolutely new to us as a result of September 11, the 
Homeland Security Department was formulated in a rush and I do 
understand what it takes to put together a program that really 
secures us, that will create a filling of security among 
Americans and be a model. It is going to be difficult to do in 
a hurry, so I just want to say, we shouldn't rush through it, 
we should think through it.
    When the GAO reported that the Department did not give 
enough feedback on preparedness plans and the jurisdictions 
have little idea what they should be doing better, I think is a 
very cogent point. We need to give direction and we need to 
think through that direction. When they reported there were no 
central source tracking, antiterrorism grants of the amount in 
this capital region and that there was a lack of supporting 
documentation that indicates a lack of financial controls. 
Absolutely.
    So I am hoping that our panelists will suggest ways in 
which we can direct activities to help the region to develop a 
model. When there is an absence of clear Federal guidelines, 
local and State leaders use some of the funds to plug up their 
budget gaps. This is not new. When the money is out there, we 
are going to use it for the priorities that we have had 
traditionally.
    I am hoping that those of you can help give the guidance 
and direction that is needed as this area goes about 
formulating their preparedness plans.
    Thank you very much.
    Chairman Tom Davis. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Mr. Chairman, thank you and the ranking 
member for returning to this very important topic.
    Certainly all Members of Congress have a personal stake in 
keeping our Nation's Capital Region safe for those who live, 
work and visit. It doesn't take a rocket scientist to recognize 
that this city and even Capital Hill are prime targets for 
terrorists but like you, Mr. Chairman, I am a former county 
executive and come from one of the States represented in this 
region, so this remains a vital topic to me and my 
constituents.
    I have not read the GAO report being released today but I 
can only go by what I have read in the papers this morning and 
what I have read disturbs me. It states that intergovernmental 
coordination is critical to any successful plan and we can all 
appreciate the complexities involved. Those complexities are 
three levels of government, various funding streams, funding 
shortages, jurisdictional issues, private sector involvement, 
outreach to citizens and those who work in the city, planning, 
training, information sharing and implementation, complex 
problems being worked on by some very dedicated individuals but 
still almost 3 years after the attacks of September 11, GAO 
finds that this critical coordination is lacking and that is 
disturbing.
    An effort such as the National Capital Region Domestic 
Preparedness Plan needs more than State and local government 
coordination, it requires leadership from the top down and I 
believe the Department of Homeland Security must play a 
consistent role here. I am pleased to see Tom Lockwood with us 
today and congratulate him on his new role at DHS. I know how 
hard Tom worked with Dennis Schrader in the Maryland Office of 
Homeland Security. I know he brings a wealth of capability to 
DHS. Good luck. I urge Secretary Ridge and the other leaders at 
DHS to support Tom Lockwood in his efforts so that he can 
provide the much needed direction to move this coordination 
forward.
    Of course keeping our homeland safe comes with a hefty 
price tag. As this region sets its priorities for protection 
including the necessary personnel, training, equipment and so 
on to tackle the many problems that remain as interoperability, 
I would hope that DHS and the Federal Government will provide 
the necessary resources to make the NCR plan successful. Local 
leaders are crying out for funding. The States are doing the 
best they can with competing priorities. I think we need to 
find a way to get this money directly to those who need it the 
most. There is much we can do in Congress to make efforts like 
this all across the country more successful. We can finally 
pass legislation to create national standards for homeland 
security so we know what we mean by being prepared and make 
sure we spend our money wisely. We can also look at viable 
risks and set priorities based on credible threats and we can 
continue to provide this critical oversight.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
follows:]

[GRAPHIC] [TIFF OMITTED] T5626.006

[GRAPHIC] [TIFF OMITTED] T5626.007

[GRAPHIC] [TIFF OMITTED] T5626.008

    Chairman Tom Davis. Thank you very much.
    Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman.
    Let me first begin by thanking the witnesses for being here 
today and giving us our testimony, and for their efforts in 
addressing an issue which impacts all of us greatly here in the 
Nation's Capital and beyond.
    In the aftermath of the tragedies of September 11, many 
lessons were learned and many vulnerabilities were realized. 
Given that the National Capital Region was clearly a desired 
target of our enemies, it was the recipient of well over $300 
million through a number of grants. These funds were to be 
utilized by all of our areas first responders, whether Federal, 
State or local in a coordinated effort of planning, 
preparation, training and execution of appropriate responses to 
whatever the circumstances dictate in terms of an attack or an 
incident in the D.C. area. Additionally, similar grants have 
also been issued nationwide to heavily populated regions for 
the same purpose as applies to their respective areas.
    We, in Congress are the keepers of the funds and we are 
responsible to the taxpayer to ensure they are spent wisely and 
in the interest of homeland security and the American taxpayer. 
Further, the NCR is at the helm of this issue and the example 
we set locally should provide value to the other areas 
throughout America. Our lives, our security and very 
realistically our futures depend on it.
    I look forward to hearing the testimony today and learning 
of the progress those changes have had in implementing these 
efforts that have been made.
    Mr. Chairman, I thank you for arranging this very important 
hearing. I look forward to a healthy exchange of questions and 
answers following this testimony.
    I don't live in the District but I live in the Hampton 
Roads area where we have one of the largest ports in America 
and the largest concentration of military anywhere in the 
world. So what is said here today, I am going to listen to 
carefully because the impact here is going to have the same 
impact in our area. Every time I go home, which are the 
happiest days when I go home, every time I pass through the 
Hampton Roads bridge tunnel underneath that tunnel, I think, 
``who is under there and what are they getting ready to do.'' I 
worry about that every single time. Hopefully we can learn 
something here today that maybe will prevent something like 
that.
    I thank you all, especially those in uniform. I wore the 
uniform in the Navy for 24 years, so I naturally hone in on 
anybody wearing a uniform. I thank you for what you do and for 
what you are trying to do to help solve this problem and 
eradicate terror from the face of the Earth. Thank you and I 
look forward to your testimony.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Edward L. Schrock follows:]

    [GRAPHIC] [TIFF OMITTED] T5626.009
    
    Chairman Tom Davis. Thank you very much.
    Mr. Moran.
    Mr. Moran of Virginia. Thank you, Chairman Davis.
    Chairman Tom Davis. Thanks for joining us today.
    Mr. Moran of Virginia. I wanted to participate in this 
important hearing on the emergency preparedness of our region 
because it directly affects the lives of our constituents, our 
districts and the Nation's Capital.
    The response to the terrorist attack on the Pentagon on 
September 11 demonstrated the heroism and the professionalism 
of the emergency responders in Arlington, Alexandria, Fairfax 
County, surrounding localities and our Federal emergency 
responders. I am particularly proud of the Arlington County 
fire departments' emergency response to the Pentagon. The 
Federal Commission that investigated the terrorist attacks 
issued a report which characterized Arlington's response as a 
success, overcoming all the inherent complications that arise 
when so many Federal, State and local jurisdictions are 
involved. Our Fire Chief sees that I am wearing Arlington's 
official tie to underscore that.
    Unfortunately, the largest lessons of September 11 made 
clear that this region was not adequately prepared to respond 
to that disaster and regional coordination was virtually 
nonexistent. It was a good thing that an office of the National 
Capital Region was established within the Department of 
Homeland Security to address the unique challenges to emergency 
response that our Nation's Capital is bound to face. Yet, the 
General Accounting Office will attest today that nearly 3 years 
after the terrorist attacks of September 11 and after receiving 
a huge influx of money to secure the region and make it better 
prepared, the Washington area still lacks a coordinated plan to 
deal with emergencies and is unable to explain where critical 
security gaps remain and why most of the money that has been 
made available so far has in fact yet to be spent.
    Not only am I concerned with the lack of coordination among 
the various localities, I have been discouraged by the lack of 
transparency and information sharing of the decisions being 
made by the Office of the National Capital Region with the 
members who represent it. On September 11, 2003, the 2-year 
anniversary of the attack, I suspect a number of my colleagues 
may have written similar letters, I wrote a letter to Secretary 
Ridge. The letter said, ``I continue, however, to hear concerns 
raised by first responders, health department officials and law 
enforcement officers as they prepare for possible 
contingencies. I think a checklist with benchmarks might be a 
very useful approach to measure and determine this region's 
reliable functioning capabilities, those this region has and 
those it lacks. The area congressional delegation will do all 
that it can to provide the necessary resources.'' At least as 
of today, we have yet to receive any response to this letter or 
to that proposal. That was more than a year ago. That, I think, 
gets to the heart of today's hearing.
    Mr. Lockwood, I don't mean for you to be the one in the hot 
seat. I understand you came very highly recommended and not 
just by Congressman Ruppersberger and by Governor Erlich and I 
know you were just newly appointed to your position, but it 
took 5 months to have the vacancy left by Michael Byrne, your 
predecessor, to be filled after he went off to Microsoft.
    Mr. Chairman, I do commend you for holding this hearing and 
I know you are determined to lead the effort to improve and 
enhance coordination among the region's jurisdictions and I 
appreciate that apparently, at least in the case of the 
Nation's Capital, financial resources are not as much of a 
problem as is the management of those resources. Again, I 
appreciate your leadership in having this hearing, Mr. 
Chairman. You are right on top of it in a timely manner given 
the front page article in the Washington Post. Again, this is 
going to be a very productive hearing and I appreciate the 
opportunity to participate.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. James P. Moran follows:]

    [GRAPHIC] [TIFF OMITTED] T5626.012
    
    [GRAPHIC] [TIFF OMITTED] T5626.013
    
    [GRAPHIC] [TIFF OMITTED] T5626.014
    
    Chairman Tom Davis. Thank you, Jim.
    Mr. Cummings.
    Mr. Cummings. Mr. Chairman, I will be very brief.
    I want to thank you for holding this hearing.
    In the Homeland Security Act of 2002, Congress created the 
Office for National Capital Region Coordination within the 
Department of Homeland Security in order to ensure that 
activities between the regional governments and the Federal 
Government were coordinated. By providing millions of dollars 
in grant funding, the Federal Government is attempting to 
assist regional jurisdictions in preparation for combating 
terrorism and responding to emergencies. All of the 50 States 
and the U.S. territories are eligible for this funding.
    As a result of this committee's two previous hearings, the 
U.S. General Accounting Office has requested to examine the 
budget and spending plans for the National Capital Region in 
order to ensure that it is sufficiently funded and that the 
fund distributed are used appropriately to address emergency 
preparedness. The GAO report entitled, ``U.S. General 
Accounting Office, Homeland Security Management of First 
Responders,'' has identified three challenges in coordinating 
the homeland security funds provided to the jurisdictions in 
the National Capital Region. First, there are no current 
standards for determining existing first responder capacity. 
Second, there is no existing plan for establishing these 
standards. Third, ONCRC has not obtained complete information 
on the amount of DHS grant funds available to each jurisdiction 
within the NCR. These deficiencies make it difficult to develop 
adequate plans for addressing outstanding needs within the 
region and to determine if DHS funding is being spent 
effectively and efficiently.
    More than ever with our Nation's increasing budget deficit 
and the constant threat of organized terrorist activity, it is 
important that we ascertain that the Federal dollars spend to 
make the NCR safe are used effectively and efficiently. I have 
often said, Mr. Chairman, that one thing it seems that 
Democrats and Republicans agree upon is that the taxpayers' 
money must be, must be, must be used effectively and 
efficiently and there are processes put in place that ensure a 
well prepared region in the event of an emergency.
    So I look forward to hearing from today's witnesses and 
hope this hearing will help us to better assess our progress in 
preparing the National Capital Region to deal with potential 
threats to determine what our needs are for better coordination 
and planning and evaluate emergency preparedness funding for 
our Nation's Capital.
    I am very pleased to see with us, Maryland's Director of 
Homeland Security, Dennis Schrader. I am very pleased to have 
you with us and all of our witnesses, we thank you.
    With that, Mr. Chairman, I yield back.
    Chairman Tom Davis. Thank you very much.
    We will now move to our first panel of witnesses consisting 
of Thomas Lockwood, the new Director of the Office of National 
Capital Region Coordination, Department of Homeland Security; 
William Jenkins, Director, Homeland Security and Justice 
Issues, General Accounting Office; the Honorable George 
Foresman, assistant to the Governor for commonwealth 
preparedness, Commonwealth of Virginia; Dennis Schrader, 
director, Office of Homeland Security, State of Maryland, who 
will not provide testimony but is available for questions; and 
finally, Ms. Barbara Childs-Pair, director, D.C. Emergency 
Management Agency, accompanied by Mr. Robert Bobb, city 
administrator, interim Deputy Mayor for public safety and 
justice; Mr. Steven Crowell, acting administrator, State 
Homeland Security; and Ms. LeAnn Turner, director, Homeland 
Security Grants Administration.
    Let me thank all of you for taking time from your very busy 
schedules to be with us today, share your testimony and answer 
some questions. Our committee swears all witnesses before 
testifying.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you.
    We have some lights here on the front table. They will turn 
green when I recognize you, they will stay green for 4 minutes 
and turn orange for 1 minute and when that red button comes on, 
we would like you to move to sum up. Your entire written 
testimony is in the record and questions will be based on the 
entire testimony but the 5-minutes gives you time to emphasize 
it.
    Mr. Lockwood, we will start with you and move down. Again, 
welcome. You are no stranger to this. We are happy to see you 
on board and thank you for being here.

  STATEMENTS OF THOMAS LOCKWOOD, DIRECTOR, OFFICE OF NATIONAL 
 CAPITAL REGION COORDINATION, DEPARTMENT OF HOMELAND SECURITY; 
   WILLIAM JENKINS, DIRECTOR, HOMELAND SECURITY AND JUSTICE 
 ISSUES, GENERAL ACCOUNTING OFFICE; GEORGE FORESMAN, ASSISTANT 
TO THE GOVERNOR FOR COMMONWEALTH PREPAREDNESS, COMMONWEALTH OF 
    VIRGINIA; DENNIS SCHRADER, DIRECTOR, OFFICE OF HOMELAND 
SECURITY, STATE OF MARYLAND; AND BARBARA CHILDS-PAIR, DIRECTOR, 
                D.C. EMERGENCY MANAGEMENT AGENCY

    Mr. Lockwood. Thank you. I am honored to be here.
    I would like to summarize my statement and ask the full 
statement be included in the record.
    I am Tom Lockwood, the new Director for the National 
Capital Region Office of Coordination. I am honored to be here 
today.
    I want to thank Congress for having the wisdom of having an 
office like the National Capital Region which focuses on a 
critical region in the United States. Some of the key roles of 
this office, which have been summarized by both sides, is the 
coordination of activities within the Department of Homeland 
Security relating to the National Capital Region, be an 
advocate for the region, to provide information to the region, 
to start working with State, local, not for profit and regional 
organizations for an integrated, cohesive plan for emergency 
preparedness. This is a very complex region. There are multiple 
jurisdictions, there are multiple levels of government and 
divisions within government. It is a challenge but it is 
doable.
    In the spirit of cooperation, this office is actively 
working with the District of Columbia, the State of Maryland, 
and the Commonwealth of Virginia and through the senior 
leadership we have formed a group, the Senior Policy Group, 
which have been working at unprecedented levels of cooperation. 
This office has been actively coordinating across Federal 
agencies. A key mechanism has been the Joint Federal Committee 
whose members are drawn from multiple Federal agencies across 
the Federal Government. Specific examples of the efforts being 
worked on right now are issues such as protective measures 
across the National Capital Region; standard protective 
measures across the National Capital Region, standard 
protective measures; credentialling, working through protocols 
and sharing information; and again, not only is the Federal 
Government working between itself but these will be integrated 
with local and State government authorities.
    One of the key roles we have to improve, is we need to 
integrate and synchronize some of the investments we have 
talked about thus far. Working through the Senior Leadership 
Group, the Senior Policy Group [SPG], working with the county 
administrative officers, working with the Emergency 
Preparedness Council, it has been quite an opportunity to bring 
in different views at different levels, many voices, same 
message of participation.
    It is critical that we have an integrated strategy, that it 
is a strategy that is based with local government and State 
government working together within the region with an office 
like this office coordinating between the levels and with 
Federal Government. This coordination provides the foundation 
for the emergency preparedness for the region, the process has 
been much more formalized in the last several months where 
there is active commitment from local government within the 
prioritization of the resource allocation. That has been 
accepted by the region and we have been actively working 
through that process.
    The region will be coordinating over the next several 
months to build an integrated plan, Federal, State and local 
and we are actively committed to that. The region is taking 
great strides to develop our plans and our protocols; we have 
been working quite actively with the emergency response 
community.
    In closing, the NCR provides a unique challenge to protect 
our citizens, our guests, our institutions. We have worked and 
developed a solid foundation that is built with a relationship 
between Federal, State and local governments, the nonprofits, 
the regional authorities, and the general public. We are 
committed to continue that relationship on this integrated 
approach.
    Thank you very much.
    [The prepared statement of Mr. Lockwood follows:]

    [GRAPHIC] [TIFF OMITTED] T5626.015
    
    [GRAPHIC] [TIFF OMITTED] T5626.016
    
    [GRAPHIC] [TIFF OMITTED] T5626.017
    
    [GRAPHIC] [TIFF OMITTED] T5626.018
    
    [GRAPHIC] [TIFF OMITTED] T5626.019
    
    Chairman Tom Davis. Thank you very much.
    Mr. Jenkins, thank you for your work on this.
    Mr. Jenkins. I appreciate the opportunity to be here today 
to discuss our report for this committee on ``Federal First 
Responders Grants and Capacity Building in the National Capital 
Region.'' Our report discusses issues within the NCR associated 
with managing first responder grants, assessing gaps in first 
responder capacities and preparedness and the evolving role of 
the Office for National Capital Region Coordination and the 
very difficult task of coordinating and assessing efforts to 
enhance first responder capacity across the NCR.
    When DHS was created in 2002, Congress created the NCR 
Coordination Office within the Department of Homeland Security 
to coordinate Federal programs for and relationships with 
Federal, State, local, regional and private sector agencies and 
entities in the region, to ensure adequate planning, 
information sharing, training and the execution of domestic 
preparedness activities among these agencies and entities.
    The office's responsibilities include preparing an annual 
report to Congress that one, identifies required resources; 
two, assesses progress in implementing homeland security 
efforts in the region; and three, includes recommendations to 
Congress on any needed additional resources to fully implement 
homeland security efforts.
    In our work, we focused on 16 Federal grants that provided 
us $340 million to NCR jurisdictions for emergency response and 
planning for fiscal years 2002 and 2003. Of this total, the NCR 
Coordination Office targeted all of the $60.5 million 2003 
urban area security initiative funds for projects designed to 
benefit the region as a whole. Spending for the remaining 
$279.5 million for 15 grants was determined primarily by local 
jurisdictions to whom in some instances the grants were 
directly rewarded. The largest of these grants, the $230 
million, 2002 Department of Defense Emergency Supplemental, was 
distributed before the NCR Coordination Office came into 
existence and it was targeted primarily for equipment.
    Effectively managing first responder grants funds requires 
identifying threats and managing risks, aligning resources to 
address them and measuring progress in preparing for those 
threats and risks. The NCR Coordination Office and NCR 
jurisdictions face at least three interrelated challenges in 
managing Federal funds to maximize results, minimize efficiency 
and unintended and unnecessary duplication of effort. They need 
preparedness standards for first responders in the region and 
benchmarks such as best practices, a coordinated regionwide 
plan for establishing first responder performance goals, needs 
and priorities and assessing the benefits of expenditures and 
last, a readily available, reliable source of data on the 
Federal grant funds available to NCR first responders and the 
budget plans and criteria used to determine spending priorities 
and track expenditures compared to those priorities.
    Without the standards, a regionwide plan and needed data, 
it is extremely difficult to determine whether the NCR has the 
ability to respond to threats and emergencies with well 
planned, well coordinated and effective efforts that involve a 
variety of first responder disciplines from NCR jurisdictions.
    Regarding data collection, the recent report of the DHS 
Homeland Security Advisory Council has recommended that DHS, in 
coordination with State, local and tribal governments, develop 
an automated grant tracking system that would allow for real 
time tracking of the distribution and use of homeland security 
funds. We recognize that the NCR Coordination Office came into 
existence about 15 months ago and some startup time has been 
required to organize itself and establish processes and 
procedures for fulfilling its statutory responsibilities.
    To date, the NCR Coordination Office has focused on 
developing a regionwide plan for use of the urban area security 
grant moneys. We recognize that the office had limited 
opportunity to coordinate spending from the remaining 15 
grants. However, the NCR Coordination Office needs data on how 
moneys from these remaining 15 grants were spent and with what 
effect to develop a baseline of current first responder 
capacities in the region that can be used to compare what is to 
what should be and coordinate and monitor efforts to transition 
to what should be.
    We have recommended that the NCR Coordination Office work 
with NCR jurisdictions to develop a coordinated strategic plan 
for building and maintaining first responder capacity and 
monitor progress in implementing that plan. In their comments 
on our report, DHS noted that a government structure has now 
been established that should provide essential coordination in 
the region.
    That concludes my statement, Mr. Chairman. I would be 
pleased to answer any questions you or members of the committee 
may have.
    [The prepared statement of Mr. Jenkins follows:]

    [GRAPHIC] [TIFF OMITTED] T5626.020
    
    [GRAPHIC] [TIFF OMITTED] T5626.021
    
    [GRAPHIC] [TIFF OMITTED] T5626.022
    
    [GRAPHIC] [TIFF OMITTED] T5626.023
    
    [GRAPHIC] [TIFF OMITTED] T5626.024
    
    [GRAPHIC] [TIFF OMITTED] T5626.025
    
    [GRAPHIC] [TIFF OMITTED] T5626.026
    
    [GRAPHIC] [TIFF OMITTED] T5626.027
    
    [GRAPHIC] [TIFF OMITTED] T5626.028
    
    [GRAPHIC] [TIFF OMITTED] T5626.029
    
    [GRAPHIC] [TIFF OMITTED] T5626.030
    
    [GRAPHIC] [TIFF OMITTED] T5626.031
    
    [GRAPHIC] [TIFF OMITTED] T5626.032
    
    Chairman Tom Davis. Thank you very much.
    Mr. Foresman, thank you for being with us.
    Mr. Foresman. Thank you and thank you to the committee for 
having us.
    I appreciate the opportunity to testify today to talk about 
the important issues surrounding preparedness in the National 
Capital Region.
    Let me begin by acknowledging that the region is indeed 
better prepared today than it was on September 11, 2001. I 
point to the exceptional levels of cooperation among all levels 
of government with the private sector and communications with 
our citizens during the past 30 days with the dedication of the 
World War II Memorial as well as the State funeral for former 
President Reagan.
    I also want to personally thank the staff from the U.S. 
General Accounting Office who just recently completed their 
review. They were diligent in their efforts to obtain a level 
of understanding of funding practices in a region that all of 
us agree is very complex in part because of the large presence 
of critical national government functions. Their task was made 
more challenging by the rapidly evolving nature of homeland 
security as well as related funding activities.
    There are those who say that developing our homeland 
security capabilities locally at the State level and nationally 
is like trying to build a plane that is taking off. I expect 
for the GAO the same is true in terms of their ability to 
evaluate practices, processes and goals when the one constant 
is change.
    Since the tragic attacks of September 11, 2001, the NCR has 
been allocated nearly $400 million in Federal funding. The 
funding has come in a variety of ways, direct earmarks through 
Federal grant programs and collaterally where we were the 
direct beneficiaries of Federal agency preparedness 
initiatives.
    The benefit has come in the context of the whole. The sum 
capabilities of the local, District, State and private sector 
readiness has improved across the entirety of the NCR. Having 
talked about those benefits, it does not imply that every fire 
or law enforcement, emergency management, public health or a 
host of other local, State, District and private sector 
activities with critical responsibilities has been a direct 
beneficiary.
    The simple fact is that there will never be sufficient 
financial resources to address the full range of potential 
needs of each community, discipline or organization. 
Consequently, much of our effort and the collaborative effort 
between local government, State government, regional partners 
and the private sector during the past 2\1/2\ years has been 
dedicated to addressing the higher priority needs and 
establishing prevention and preparedness focus that is right 
size against a full range of other legitimate competing 
priorities.
    It represents a very disciplined approach on the part of 
the National Capital Region. This focus has required that we 
collectively undertake three key activities in the context of 
the National Capital Region. The goal from the beginning of 
local, State and Federal personnel has been to better 
coordinate and facilitate the integration of effort and not to 
create duplicative and competing organizational structures. The 
Office of National Capital Region Coordination was in fact 
established by the Congress in 2002 but the Department of 
Homeland Security and the Office of National Capital Region 
Coordination were not effectively stood up until early 2003. I 
would offer that local, State and Federal officials in the 
intervening time from September 11 and prior to that were 
effectively working together on a host of issues. We should not 
imply that there was no coordination prior to September 11 and 
it has dramatically increased in the intervening timeframe, 
especially even in advance of the creation of the Office of 
National Capital Region Coordination.
    While we have been working during the past 2\1/2\ years 
with the stakeholder groups to gain a better understanding of 
efforts underway to identify needs to manage risk and to craft 
a solid approach of governance that improves our ability to 
manage the effort over the longer term, we have been doing this 
while concurrently moving forward on a host of critical 
preparedness and prevention initiatives identified by the 
Congress, State government, local government, the private 
sector and our citizens immediately after September 11. In 
short, we have been working hard to address many critical 
issues while at the same time putting in place the solid 
planning requirements needed to ensure sustainable, practical 
expenditure of funds over the longer term.
    Mr. Chairman, members of the committee, we remain steadfast 
in the commitment to find the right balance between speed and 
diligence in terms of moving forward with our efforts in the 
National Capital Region. We are very quickly putting into place 
the synchronized efforts that must survey beyond short term 
accomplishment. We are in various stages of addressing many of 
the readily identifiable issues, improve preparedness across 
the entire NCR. Public and private sector will require more 
than addressing these readily identifiable issues. It is a 
longer term effort. It does require the sustained planning 
activities currently ongoing and have produced a number of 
notable accomplishments including the fact that the Senior 
Policy Group and our chief administrative officials are meeting 
literally monthly to discuss these issues in the National 
Capital Region.
    The one thing I would offer, Mr. Chairman, is Mr. Jenkins 
made reference to the task force report that was produced for 
the Homeland Security Advisory Council. There are a number of 
solid recommendations in that report that mirror some of the 
issues we have in the National Capital Region. The one thing I 
would offer is I don't think anyone recognized on the front end 
what a monumental task this was going to be. Having said that, 
the one thing I do encourage this committee to do and you all 
as Members to do is to give careful consideration to suspension 
of the Cash Management Act guidelines for the 2005 grant cycle. 
That will allow us to get badly needed cash into local 
communities so that they can expedite many of the preparedness 
functions that are caught in the conundrum between the 
unavailability of cash and the need to go through procurement 
processes.
    Mr. Chairman, members of the committee, thank you all for 
the opportunity to appear today. Thank you for what you all are 
doing for the National Capital Region, the oversight and 
attention helps all of us do better.
    Thank you.
    [The prepared statement of Mr. Foresman follows:]

    [GRAPHIC] [TIFF OMITTED] T5626.033
    
    [GRAPHIC] [TIFF OMITTED] T5626.034
    
    [GRAPHIC] [TIFF OMITTED] T5626.035
    
    [GRAPHIC] [TIFF OMITTED] T5626.036
    
    [GRAPHIC] [TIFF OMITTED] T5626.037
    
    [GRAPHIC] [TIFF OMITTED] T5626.038
    
    [GRAPHIC] [TIFF OMITTED] T5626.039
    
    [GRAPHIC] [TIFF OMITTED] T5626.068
    
    [GRAPHIC] [TIFF OMITTED] T5626.069
    
    [GRAPHIC] [TIFF OMITTED] T5626.070
    
    [GRAPHIC] [TIFF OMITTED] T5626.071
    
    [GRAPHIC] [TIFF OMITTED] T5626.072
    
    Chairman Tom Davis. Thank you very much.
    Ms. Childs-Pair.
    Ms. Childs-Pair. Good morning.
    Thank you for this opportunity to testify before you today.
    On behalf of Mayor Anthony Williams, I am here today to 
provide information to the committee on emergency preparedness 
in the National Capital Region.
    At this time, I would like to introduce Mr. Robert Bobb, 
city administrator for the District of Columbia and the interim 
Deputy Mayor for public safety and justice. The 
responsibilities of the Deputy Mayor for Public Safety and 
Justice include supporting Mayor Williams in the continued 
guidance and development of homeland security strategy for the 
District of Columbia; working in partnership with senior 
Federal, State and local officials within the National Capital 
Region to guide regional planning and implement regional 
policy, oversight of spending related to special appropriations 
and Federal grants, supporting homeland security and the 
direction of emergency preparedness activities for the District 
of Columbia.
    In order to provide more effective and cohesive oversight, 
the Federal Department of Homeland Security now requires that 
homeland security grants being awarded to States be funneled 
through a single State administrative agent. The Mayor of the 
District of Columbia has appointed the Deputy Mayor as the 
homeland security point of contact through which all grant 
moneys must be administered. Over the past 3 years, the Deputy 
Mayor's office has developed an innovative administrative 
structure and grant management process that strengthens and 
supports security preparedness in the Nation's Capital.
    The following strategic priorities guided the Deputy 
Mayor's administration of the grant funds that came to the 
city, approved the District and region administration of grant 
funding for disaster response and recovery ability by 
developing and maintaining an understanding of integrated 
operational capability, developed in coordination with our 
Federal partners, volunteer organizations, universities and the 
private sector, assist all levels of the District and regional 
government first responders, volunteer groups, universities and 
the public in meeting the responsibility of public emergency 
and challenges through program management and coordination 
activities.
    This will allow for a methodology for strategic planning 
and a justification for resource allotment, provide critical 
information to Congress, the public, the media and the 
emergency management community by maintaining strict spending 
and activity records and by building partnerships with and 
among Federal and regional entities, District agencies, other 
responder organizations and the private sector.
    Shortly after September 11, Congress appropriated funds for 
emergency preparedness and homeland security, including 
$155,900,000 to various agencies of the District of Columbia 
for fiscal years 2002 and 2003. A special appropriations also 
was delineated among 12 Federal payment categories across 13 
agencies, including the District's Emergency Management Agency, 
Fire and Emergency Medical Service Department and the 
Metropolitan Police Department.
    Our goals and priorities included the following: ensure the 
District of Columbia is prepared to respond to and recover from 
emergencies and incidents of all kinds, including natural 
disasters, manmade disasters and terrorist attacks; ensure that 
law enforcement organizations are working together to prevent 
terrorist attacks to the greatest extent possible; maintain an 
appropriate balance between security considerations and 
openness; empower citizens to be prepared for any emergency or 
disaster; and engage non-governmental, private sector and 
community organizations as full partners in the District's 
homeland security emergency preparedness programs.
    Our priorities included: outfitting and training our first 
responders with the proper equipment and tools they need to 
fulfill their responsibilities effectively and safely; train 
key personnel in our District response plans for all hazards; 
conduct and participate in tabletop and field exercises; meet 
or exceed emergency management accreditation program standards 
for emergency, disaster management, and business continuity 
planning; become the first city in the Nation to be accredited; 
and to develop interoperability among the key Federal, State 
and District agencies in the Washington, D.C. Metropolitan 
Region for large scale incidents. Additionally, as approved by 
Congress, in Public Law 107-206, 2002 Supplemental 
Appropriations Act for further recovery from and response to 
terrorist attacks on the United States, 1 percent of the funds 
were separated into a fund for administrative costs.
    In summary, I would like to add the following. While we 
have our tracking tools, we are spending the money as available 
and expediting as we can but since September 11, the District 
has not faced many challenges in obtaining Federal funding for 
emergency preparedness based on the allocation of the $156 
million in appropriations. Even though the District has not 
faced challenges in obtaining funding, we are concerned with 
maintaining the levels of readiness in the future if the grant 
levels are decreased. The upkeep and renewal of equipment, 
revision of plans based on new threats and policies and 
training of personnel within the regions have a significant 
financial impact if to the localities without future grant 
funding.
    Challenges associated with receiving funds include 
personnel to support new equipment, maintenance 
responsibilities and associated training. An additional 
challenge is the Federal funds require many agencies to use 
approved training courses. Training must be done through 
federally approved programs but the training courses that we 
offer do not fulfill the District's training needs regarding 
preparedness and response. The Washington, DC, metropolitan 
area is subject to many potential hazards, both natural and 
manmade as well as major special events which are specific to 
the National Capital Region. Protests against the war in Iraq, 
the World War II Memorial dedication and the funeral of Ronald 
Reagan are recent examples of events that affected the city. 
The District's support for all of these events has been 
improved because of the planning, communications, training 
exercises made possible with the Federal funds and the support 
from the Office of the National Capital Region Coordination and 
NCRC has created a forum for all entities to engage and 
communicate effectively through meetings and conference calls 
that have allowed these events to occur in a safe and 
responsible manner.
    Thank you for this opportunity to testify here today and 
for your continued support.
    [The prepared statement of Ms. Childs-Pair follows:]

    [GRAPHIC] [TIFF OMITTED] T5626.040
    
    [GRAPHIC] [TIFF OMITTED] T5626.041
    
    [GRAPHIC] [TIFF OMITTED] T5626.042
    
    [GRAPHIC] [TIFF OMITTED] T5626.043
    
    [GRAPHIC] [TIFF OMITTED] T5626.044
    
    [GRAPHIC] [TIFF OMITTED] T5626.045
    
    [GRAPHIC] [TIFF OMITTED] T5626.046
    
    Chairman Tom Davis. Thank you all very much. I will start 
the questioning.
    Mr. Lockwood, Department of Homeland Security left this 
position open for several months. Much of what we have talked 
about today is the setting of priorities, placing available 
resources against those priorities. No one can be successful in 
this job if they don't have enough visibility and resources 
within DHS to fulfill that mission. The fact that they left 
this open so long and so on, do you think you have needed clout 
there or do you think we need to write some law? What do you 
think? For you to be successful, you have to be able to have 
clout within the agency. The fact they left this open for so 
long, I think leaves a lot of us in doubt in terms of what is 
the commitment of the administration.
    Mr. Lockwood. I would like to think they left it open so 
long that they could pick the good person for this job. Let me 
just say, Secretary Ridge is very much interested in the 
National Capital Region. He works here, he is here, his senior 
staff is here. This is something very important to DHS. I have 
talked to Secretary Ridge on several occasions as well as the 
senior staff. This is something everyone is very clear on what 
this position is.
    Coming back to where Michael Byrne was, I am standing on 
the shoulders of the giants that come before me. Mike set an 
atmosphere of cooperation and of coordination. This is a job 
that you can't be successful at unless you work through and 
with other people, through local government, through State 
government, through the Federal Government.
    Do I have the visibility in the organization? Absolutely. 
Do I have the support? Right now with great team mates like we 
have at the table here and behind us, absolutely.
    Chairman Tom Davis. We want to hear from you if you don't 
think you are getting it because I think this is critical for 
the safety of the government and for the millions of residents 
who live here, which leads me to my second question.
    We had a disaster in March 2003 with the Tractor Man who 
got sentenced to 6 years yesterday, which is I think a fitting 
ending to the chaos that he caused in the region. This was 
before Mr. Byrne appeared on the scene to coordinate this. This 
is just my opinion. This was one of the most badly coordinated 
efforts I have ever seen, one person driving a tractor holding 
up the regional traffic for three separate rush hours. You talk 
about peoples' safety, ambulances couldn't get through for 
heart attack victims, if somebody was injured, police couldn't 
get through. It was complete gridlock and that was all because 
they were concerned about one guy driving a tractor and not 
wanting to injure this person. It was a disaster.
    If something like that occurs again, are you willing to 
step in and weigh all the different considerations for the 
safety of the public but also the traffic flow and the fact the 
Government needs to continue operating, that one person 
shouldn't be able to shut down the Federal Government for a day 
and a half? That is a prejudiced question but I feel strongly 
about that. So do a lot of my constituents.
    Mr. Lockwood. Today is day 30 on the job. In day 30, we 
have gone through the World War II planning event, we have gone 
through the Reagan funeral, we have gone through a senior 
leadership seminar. Will incidents occur in this city? They 
occur every day. We have a great team behind us within local 
government, within State government to manage those. We have 
been actively working the protocols and the procedures to 
better integrate, better form incident management and unified 
command.
    Is there work to be done? Absolutely, and that is part of 
the plan working with local and State partners.
    Chairman Tom Davis. And everything went well, I think, in a 
general sense through the opening of the World War II Memorial 
and the funeral but we have had numerous incidents since I have 
been involved in politics where one person is on a bridge and 
having a bad day and stops East Coast traffic for hours, where 
we really haven't had a good response that looks at the good of 
the overall region. It focuses on that person. We need a global 
focus on this to understand what makes this city work, 
understand there are tens of thousands if not hundreds of 
thousands of people affected by one person.
    As you take this job, we want you to keep that in mind. 
Holding up the traffic for 6 hours and talking somebody off a 
bridge is not necessarily successful, in my opinion. That is my 
own opinion. It may be the minority opinion up here, I don't 
know, but they finally shot the guy down with a beanbag, I 
think in one incident and didn't charge him.
    If we allow one person to do that, it just empowers the 
next person. Nothing is going to happen to me, nothing is going 
to happen to me. This is the seat of government, we have a 
responsibility to keep it going and keep traffic moving. I just 
think for the average person, that is what they are concerned 
about. That is where they need to see coordination. Obviously 
we all fear a major disaster and how we would respond to that 
and that is important as well, but I think you are more likely 
to have these traffic terrorists or something, having a bad day 
and want to take it out on the region. I think they need to be 
dealt with quickly and effectively. My question is, I guess, 
are you prepared to do that?
    Mr. Lockwood. Yes, sir, I am prepared. When we worked 
together for the Reagan event, we had a series of 
teleconferences, Federal, State and local, to make sure we were 
well coordinated.
    Chairman Tom Davis. I will just tell you if it doesn't work 
out, just be thinking every minute that you are going to be up 
here before the committee explaining why you are doing 
everything. Monday morning is always a little different than 
Sunday afternoon on the field.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I am trying to figure out in a real sense how you figure 
into unexpected disasters because that is the whole reason for 
our preparedness. I want to take as an example another traffic 
example. The chairman took the example that exasperated the 
region. I want to take one that scared the you know what in 
everybody and the Congress--thank you, sir--bejesus, I am told. 
I am talking about the day we were all chased out of the 
Capitol. I know we were chased out of the Rayburn and I have 
come to think when you hear these bells go off, well, you know, 
I will go because I am supposed to go but once again, they are 
testing. It was when they began to talk on the loud speaker 
that I said, well, I guess I am going and then we all start--
and they told us to run, not walk and we did what they said and 
it turned out to be nothing. Let me tell you what we know and I 
want to figure out where you fit into this because this is 
really what we are interested in. We know you weren't the 
controller, we are trying to figure out what role you play in 
light of the unexpected.
    First of all, it wasn't Kentucky's fault. It turns out to 
have been the fault at our end because Kentucky apparently 
alerted the FAA. Apparently within the time period he took off 
at 3:45 p.m., and they didn't realize their error until 4:34 
p.m. and that was, according to this report, 3 minutes after 
the Capitol evacuation was ordered and that the aircraft was 11 
miles or 3 minutes away.
    Who should have been coordinating apparently was the 
National Capital Regional Coordination Center, whatever that 
is. The FAA air coordinator apparently did not notify this 
center. I am on the Aviation Subcommittee and they are looking 
at it. I am on Homeland Security and we are looking at it, so I 
know kind of where those folks fit in and maybe you shouldn't 
fit in but my question is, when something like that happens, 
are you even in the loop? If so, what is your role and what do 
you do, and what did you do on that day when that happened?
    Mr. Lockwood. On that day after that happened, that evening 
we went through the initial lessons learned to understand what 
the events were.
    Ms. Norton. You misunderstand my question. First, are you 
in the loop? Did you know about it? Did you have any role to 
play or is there no role? I am prepared to accept the notion 
that if it is an airplane or something, maybe you have some 
role or maybe no role but my question is, does the coordinator 
for this region have any role when the highly unexpected 
happens and no one knows--by the way, that was one of the days 
of the Reagan funeral, I might add, when you were all supposed 
to be on very special alert. My question is, what was your 
role, when were you notified, and what did you do at that time, 
not what was your debriefing role, what did you do at that 
time?
    Mr. Lockwood. During the events of the Reagan funeral, 
there were various operations centers around the region that 
were up and operating. One of the roles I had that day was 
walking through each of the operations center to have an 
understanding of how they work and how they interact with each 
other. I was there through the discussion of what occurred.
    Am I a part of the discussion? Yes, I was present as this 
was unfolding. Yes, I was present at the debriefing and yes, I 
have been present within the lessons learned and the 
integration processes to not only understand the root cause of 
the problem but to correct that root cause and other related 
issues. I understand TSA is the lead for that effort right now.
    Mr. Foresman. Ms. Norton, would you allow me to offer a 
perspective as well?
    Ms. Norton. Yes.
    Mr. Foresman. First, I wouldn't note that the evacuation of 
the Capitol was in fact a failure. The fact that the 
notification process worked, that there was an unidentified 
aircraft taken into account, that there were some problems on 
the front end in terms of it.
    Ms. Norton. The cops up here did what they were supposed to 
do. We are quite aware of that.
    Mr. Foresman. Absolutely, but I would point out, I think 
what is important to understand for all of us is to recognize 
there are existing structures and processes and the Office of 
National Capital Region Coordination is designed to be a 
facilitator of programmatic coordination activities on a day to 
day basis but when operational events occur, those crisis 
operational structures are there and are in place, they have 
been there prior to the establishment of this office and it is 
really about not creating new structures but making sure the 
other ones work.
    Tom serves a critical role in making sure that all of the 
apparatus that are in that decisionmaking, operational 
structure, if there is a problem to help deconflict it, 
particularly on the Federal side and has been extremely 
valuable both he and his predecessor and when Ken Maul was the 
acting director.
    The one thing I would offer is this is bigger than one 
person in one office. Part of what we are doing is making sure 
we work with our local officials, our State agencies and our 
Federal agencies not to create new structures that people need 
to learn about but to go through the existing structure.
    I would just offer from a Virginia perspective, we don't 
see Tom as being the belly button for an operational activity, 
but if there is a problem, he is my first call.
    Ms. Norton. Mr. Chairman, I know my time is up but that is 
an important intervention and we fully understand he is not 
operational. That is why my question was, is he in the loop and 
let me tell you why that is my question. Precisely because he 
has a view, or should have, a view of this region that nobody 
else has precisely because of his coordination role, not that 
he has an operational role, it is that among the people who 
should be ``in the loop,'' he ought to be one of them because 
he may know something. What in the world does the FAA know 
about us in particular, what do they know about 
interoperability, for example, here in particular? So if the 
Coordinator has knowledge that others don't have, at least if 
they need to know that, he should be in the loop so that he is 
available to tell them what they don't know.
    Thank you, Mr. Chairman.
    Mr. Schrock [presiding]. Thank you, Ms. Norton.
    Thank you all for being here. Your testimony is interesting 
and I am really listening carefully to this. I guess I never 
realized the Commonwealth of Virginia thought Mr. Lockwood was 
a bellybutton but that is a new one for the books.
    The chairman commented on ``Tractor Man'' here a year ago 
March and the havoc he created and I just wonder at what point 
do we put a stop to that stuff and 1 hour after Tractor Man II 
comes along, we go in there and take him out. My military mind 
tells me we have to do that because if you have 10 tractor mans 
all around this area, you could literally paralyze this area 
for days and days. My solution to that would have been to send 
five members of a special operations force in there and you get 
rid of the guy, get him out of there. We cannot allow this to 
happen but the problem is, if they do that and the police shoot 
him, it is police brutality. I am really getting kind of tired 
of that. I think that is what we have police and law 
enforcement officials for, to do that, and the media be damned 
when it comes to that kind of stuff. We have to take stronger 
action.
    Of all the things that were said, Ms. Childs-Pair, one of 
the last things you said was will funding continue to be there. 
I worry about that too because as far as I am concerned, the 
first responders not only in the Capital Region but around 
America are doing a magnificent job working together. They are 
in the Hampton Roads area I represent and when bad things don't 
happen, Americans think, OK, we are safe again. We are real 
impatient. We think 5 minutes after something is supposedly 
corrected, we go on to the next issue and do we start cutting 
funding.
    I will use two examples. When everybody thought the world 
was at peace, defense spending was cut. Nothing could have been 
further from the truth. We had a lively debate on the floor 
yesterday about intelligence spending. Everybody thought after 
the cold war was over, we didn't need to put money into 
intelligence and we cut it. Are we going to do the same thing 
here? I don't think we can afford to do that and frankly, the 
people who sit on this side of the room have to make sure that 
never happens again. That was a very good question and I think 
that is something we need to address.
    I hate to say it but in the Hampton Roads area, gridlock is 
starting to get real nasty down there as well, so I am watching 
what happens up here to see what is going to hit us in about 5 
years. We are all too familiar with gridlock on the roads even 
in the best times during twice daily rush hours. In the event 
of an attack, in which case we can add chaos and panic to the 
evacuation equation, would any of you state we are any better 
off today than we were on September 11 and if so, please 
support that answer and if not, why not and what then do we 
have to show for the money we have spent and how soon if we are 
not getting results, can we expect results?
    Mr. Foresman. I would like to start because I was here on 
September 11. Actually, I was in Montana but got back here on 
September 12. Yes, we are much better, we are phenomenally 
better. I want to point to September 11. The men and women, 
local, State, Federal, who responded to the Pentagon from all 
across this region did their jobs with exceptional coordination 
and diligence. In fact, it was a very effective response. The 
perception we have across this region that it was an 
ineffective response was because we did have gridlock and that 
is a reality. We had well intentioned decisions made within the 
Federal family for release of the Federal work force that were 
not appropriately coordinated with State and local authorities.
    Just 30 days ago, when we talked about the whole issue of 
the Reagan funeral, when we talked abut the World War II 
dedication and all those Federal decisionmakers were on the 
phone with the State decisionmakers, and the local chief 
administrative official saying do we open or close State 
government, do we open or close the Federal Government, what 
are we going to do with local government? So from that 
standpoint if it were to happen today, I think we are 
phenomenally better prepared.
    Second, I would like to point out you talked about 
``Tractor Man'' and I think that is a phenomenally great 
example. There are two types of decisions. There are tactical 
decisions and there are strategic decisions. In our public 
safety community, we have great experience with making tactical 
decisions. We have done it for years, you understand it with 
your military background, but we have engaged in an error where 
chief administrative officials, chief elected officials at the 
local and State level have to make strategic decisions on top 
of tactical decisions and balance the economic and societal 
consequences of decisions about whether you do or don't go in 
and subdue a suspect, and balance those against all of that.
    Mr. Lockwood mentioned the fact that we did a senior 
leaders exercise and the effort is designed to make sure that 
at the tactical level, fire, EMS, law enforcement, and 
emergency management can make those tactical decisions but at a 
strategic level, those governance issues that the chief 
appointed or chief elected officials at the various levels of 
government are engaged in that process. I think we are doing a 
phenomenally better job around the region.
    The discussion we had last week was not about where do we 
place the command post, it was about what is the societal 
implication of closing or not closing government in the 
aftermath of attack.
    Mr. Schrock. George, the problem is the poor law 
enforcement people are damned if they do and they can't win. If 
they had gone in and taken out ``Tractor Man'' and 1 day, oh, 
that is a horrible thing but look what he did. He was perfectly 
harmless, we understand that, but at some point we have to say 
enough is enough, we won't do that anymore and let the chips 
fall where they may. I think the bulk of the American public 
would respect that. The media can harp on the thing as much as 
they want but at some point, we have to put a stop to this kind 
of stuff because as I said, a dozen tractor mans in this area, 
Virginia, Maryland and D.C. and we would be shut down 
completely.
    Mr. Foresman. Congressman, if I might briefly follow on to 
that, I think that is a prime example where if a tactical 
decision is made not to do something or to do something, then 
we need to make sure at the strategic level, at chief executive 
levels, that they concur or don't concur with it because it is 
not only an operational decision, it is a political decision 
when you are talking about national security.
    Mr. Schrock. Thank you.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you very much, Mr. Chairman, and 
thank all of you for your testimony.
    I was just reviewing some of the testimony from the 
previous hearing we had on this issue of defending the capital 
region and I understand there has been a great spirit of team 
work and desire and intention to collaborate. I think the 
question the GAO report raises is a gap between good intentions 
and implementation and follow through.
    In that regard, Mr. Jenkins, I understand from your report 
that you looked at the moneys that have been channeled toward 
the Capital Region over the last 2 years. As I read your 
conclusions, you say the Coordination Office, the Department of 
Homeland Security has spent most of their efforts in 
determining how to use the $60.5 million for the urban area 
security initiative funds, is that right?
    Mr. Jenkins. That is correct.
    Mr. Van Hollen. I saw your breakdown of how those have been 
spent. Have you had any opportunity to analyze the 
effectiveness of the allocation of those moneys? Do you think 
those moneys are being well spent for the purposes?
    Mr. Jenkins. We didn't really have an opportunity. We got 
some basic summary of what those moneys were for and why in the 
form of a table. One of the things we wanted to get that we 
didn't get that would have been helpful to us was the feedback 
they gave to local jurisdictions about their plans because the 
$65 million, decisions on that was based on analysis of the 
plans that local governments sent to the Office of Domestic 
Preparedness but we never saw what those assessments were, so 
that made it very difficult for us to determine how this 
process worked.
    It certainly is true, and I think it is laudable that what 
they tried to do was look at it on a regionwide basis and tried 
to look at both private sector, public and State but we didn't 
have the information to really assess whether this was a good 
plan or a so-so plan.
    Mr. Schrock. Did you ask for that information?
    Mr. Jenkins. We did ask for that information.
    Mr. Schrock. We can followup on that.
    Mr. Van Hollen. Have you had any opportunity to analyze the 
effectiveness of the allocation of those moneys? Do you think 
those moneys are being well spent for the purposes?
    Mr. Jenkins. We didn't really have an opportunity. We got 
some basic summary of what those moneys were for and why they 
were for in the form of a table. One of the things we wanted to 
get that we didn't get that would have been helpful to us was 
the feedback they gave to local jurisdictions about their plans 
because the $65 million decision was based on an analysis of 
the plans that local governments had sent to the Office of 
Domestic Preparedness but we never saw what those assessments 
were so that made it very difficult for us to determine how 
this process worked.
    It certainly is true and I think what they tried to do is 
laudable in looking at it for a regionwide basis and tried to 
look at both private sector, public and State but we didn't 
have the information to really assess whether this was a good 
plan or a so-so plan.
    Mr. Van Hollen. Did you ask for that information?
    Mr. Jenkins. We did ask for that information.
    Mr. Van Hollen. We can followup on that later.
    That $60.5 million, who has control of that money?
    Mr. Jenkins. The District is actually the administrative 
officer for that money, the District of Columbia, but actually 
is money that has been appropriated to the region and it is the 
senior policy group that has been determining how to do that. 
They made a decision, Mike Byrne and the Senior Policy Group, 
made a specific decision to use that money solely for purposes 
that had regionwide benefit, not specific local jurisdiction 
benefit.
    Mr. Van Hollen. So for example, now Mr. Lockwood would have 
direct influence over where those moneys were spent?
    Mr. Jenkins. Right.
    Mr. Van Hollen. Can they be released without your approval, 
Mr. Lockwood?
    Mr. Lockwood. Part of the structure that we have changed is 
it is not just a State only process anymore. This is in 
collaboration with the county administrative officers, with the 
city administrative officer working through the CAOs. The CAOs 
fundamentally define those things that need to be done. My role 
is to make sure that we solicit, facilitate, coordinate between 
the region for the resources. What we decided was it was more 
efficient to commit all these resources to the region than to 
break it up and divide it three ways. That doesn't enhance the 
safety.
    What we then said was, instead of breaking up the 
management of this, the District of Columbia stood up and said 
we are willing to take on this additional responsibility, not 
necessarily for additional resources or additional glory 
because they definitely take the burden of trying to do the 
administrative execution of this money.
    We are actively walking through the execution of these 
dollars at this point. Roughly 37 percent of those dollars are 
going for personal protective equipment. Those purchase 
requests are now moving at this point.
    Mr. Van Hollen. Can that money be released without your OK?
    Mr. Lockwood. I believe it can be released without my OK. I 
believe this is coordinated through the State administrative 
agent.
    Mr. Foresman. The way Congress designed the program, it 
flows through the State administrative agent, in this case, the 
District of Columbia, but it is really dependent on the 
representatives, the Mayor and the two Governors and the chief 
administrative officials to determine it but we seek to achieve 
unanimous consensus on these decisions. We will not always 
achieve unanimous consensus on these decisions. We will not 
always achieve unanimous consensus but Tom is not the 
bellybutton for turning the dollars on or off.
    Mr. Van Hollen. All right. Let me get to the other part of 
the question.
    We talked about the $60.5 million, that leaves about $280 
million according to the GAO report that has been allocated in 
the last couple years. Your first recommendation is to work 
with NCR jurisdictions to develop a coordinated strategic plan 
to establish goals and priorities for enhancing first responder 
capacities that can be used to guide the use of Federal 
emergency preparedness funds which is what I thought was being 
done.
    I see my time is running out but if you could tell me, have 
you seen a document that shows of those $280 million, where 
they are being spent, where they are in the pipeline with 
respect to all the jurisdictions because that would be very 
helpful just to get at least a rough handle on where these 
moneys are going and whether they are being coordinated. Have 
you seen such a document and if you haven't, do you know 
whether one is being prepared?
    Mr. Jenkins. Let me put it this way, we never were able to 
identify one. We put humpty dumpty together from a variety of 
sources and it wasn't easy to get that information.
    Mr. Van Hollen. At least going forward, it seems to me that 
should be the job of Mr. Lockwood's office. GAO shouldn't be 
having to pull this all together, it should be there. Would you 
agree?
    Mr. Lockwood. That is one of the initiatives of DHS in 
general and will be executed in the region.
    Mr. Hollen. We look forward to getting something like that. 
Thank you very much.
    Mr. Schrock. Ambassador Watson.
    Ms. Watson. Thank you, Mr. Chairman.
    I would like to dovetail on those questions that were 
addressed to you previously. Is there an evaluation component? 
Do you see a trial run of the coordination of emergency 
services so that you could report back as to how effective they 
were or what is needed? Is there anything like that being 
developed?
    Mr. Jenkins. Are you asking me?
    Ms. Watson. Yes.
    Mr. Jenkins. That is one of the principal purposes of the 
exercises, to be able to test what you think you can do, what 
your capabilities are, so in that sense they are useful. We 
haven't seen any analysis of exercises.
    Ms. Watson. Is that something you will require? How do we 
know if what we have developed is really going to work if there 
isn't some feedback to the coordinated effort. We can't require 
anything.
    Mr. Jenkins. Ask Mr. Foresman or Mr. Lockwood. We can 
require nothing.
    Mr. Foresman. Congresswoman, one of the things we are 
required to do as a requirement of those grants is to conduct 
exercises. One of the base things you do when you conduct the 
exercise is evaluate the exercise. We have a regional exercise 
scheduled that goes out I believe 12 or 18 months at this 
point.
    Ms. Watson. That is my question.
    Mr. Foresman. We will be testing and exercising ourselves 
on a regular basis. I would be happy to say that come the fall, 
it would probably be good to come back here and tell you how 
the exercises are going and we will have a spreadsheet for you 
that shows you where all the dollars are in the pipeline.
    Ms. Watson. That is what I am asking, that we do get some 
feedback so we can monitor and can see where we need to make 
recommendations for adequate funding so the system does work.
    Mr. Chairman, I would hope that we would hold another 
hearing in the fall so that we could gather this information 
and be on top of how effective and if we are supplying you with 
enough resources.
    Chairman Tom Davis [presiding]. I hope it is under those 
circumstances and not other circumstances.
    Ms. Watson. I do also.
    Thank you.
    Chairman Tom Davis. Mr. Moran.
    Mr. Moran of Virginia. First of all, some basic questions I 
want to ask Mr. Lockwood. It is my understanding that the 
Office of the National Capital Region has yet to spend its 
fiscal year 2003 grant money, has yet to obligate its fiscal 
2004 money and has not even begun planning for how it intends 
to allocate funds for fiscal year 2005 even though the House 
has determined the amount of money that will be available for 
2005, so basically 3 years in arrears in terms of expenditure 
planning.
    I would like to get a fuller explanation of why the hold up 
and if we can get a timetable for the expenditure of that 
money?
    Mr. Lockwood. As we started this program of urban area 
security initiative which the majority of the report focused 
on, to develop a collaborative process, to get the region as a 
whole to start defining what their priorities were for the 
spending of that money did take some time. After we have come 
to agreement with those, those task orders right now, those 
contract orders are being placed through the District of 
Columbia. So the money for fiscal year 2003 is being allocated 
as we speak. That is being allocated to the plan that was 
agreed to, prioritized by the region.
    In the opening weeks of July, the county administrative 
officer, the city administrative officer, and the SPG will be 
getting together to talk about their fiscal year 2004 planning 
efforts and overall strategic planning and priorities for the 
area. Part of the feedback that I intend to provide that group 
is some of the real life exercise experience that we have had 
through the last two events as well as the senior leadership 
seminar that we had last week so that they might better 
prioritize investments for fiscal year 2004 and the 
recommendations for fiscal year 2005.
    Mr. Moran of Virginia. I don't think if you were up here 
you would find that response satisfactory but I am not going to 
take issue with you. It just seems to me that this is not a 
perfunctory kind of process. We are talking about the 
likelihood, according to Secretary Ridge, of a terrorist attack 
occurring. The resources are there and it seems to me that we 
ought to be putting things in place as fast as possible. There 
needs to be a sense of urgency.
    In your answer, and I am sure it is not intended, but 
particularly in the results of what has happened over the last 
3 years, there really doesn't seem to be a sense of urgency on 
the part of DHS with regard to the National Capital Region 
which we know is going to be target No. 1 in any attack. That 
is my concern. I am not going to ask you to take another crack 
in answering it but I think it is still a legitimate concern.
    I would like to ask, what are the top five priorities for 
the Office of the National Capital Region Coordination?
    Mr. Lockwood. Some of the key priorities right now are 
public awareness.
    Mr. Moran of Virginia. So education and information?
    Mr. Lockwood. Public education, public awareness campaign. 
We are actively working to develop a campaign that we can 
leverage the Federal resources, the content that is already 
available. Communications, and one of the priorities we have 
talked about is interoperability and interoperability within 
the National Capital Region and integration of capabilities and 
intelligence and information sharing. We have been actively 
working with the JTTS and through the JTTS and the 
antiterrorism task forces. So those are some near term 
priorities we are working on.
    Another key priority is to get the money out. Going back to 
your concern with regard to putting a priority on moving the 
money, one of the pieces we have been very concerned about is 
getting this money released into the procurement to buy what we 
need so we can field that. Additionally, we have exercises. 
Those exercises are to confirm how we are going to use this 
equipment when it is received, to make sure people can 
adequately use this as well as provide feedback to future 
investment priorities and recommendations.
    Mr. Moran of Virginia. Let me ask one last question, if I 
could. We have a potential situation that is a real threat to 
our security in the National Capital Area and that is the rail 
line that runs right through the capital, right by the 
congressional office buildings and then across the river and 
through very dense residential areas. We know that rail line 
often carries very dangerous materials, large volumes of 
chlorine gas, molten sulfur, hydrogen chloride and it runs 
adjacent or within less than a mile of some of the most 
critical installations and facilities. We had the NFL promotion 
event on the Mall and yet the rail cars continued to run.
    We haven't gotten a recommendation, nor do I see that there 
has really been much thought given to rerouting it out of the 
most critical, dangerous areas or having some limitation on 
what those railcars can carry. I had a bill that I thought 
might at least alert us to the potential threat. We sell these 
.50 caliber sniper rifles legally, you can buy them over the 
Internet and one of the things they advertise is that they will 
penetrate the fuselage of a commercial jet aircraft or the side 
of a rail car. I trust the advertising is accurate but it 
wouldn't take much to perch along the banks of that rail line 
and shoot through the hull of one of these freight cars 
carrying chlorine gas or sulfur or whatever and hundreds of 
thousands of people would be immediately affected, most of them 
in a lethal manner. Have we given any thought to this? It seems 
relevant to the homeland security priorities.
    Mr. Lockwood. Yes, sir. With regard to passenger first and 
then freight, we have been actively working on a prototype at 
the New Carrollton Station with the Metro and there has been 
active coordination with WMATA, both WMATA, Marc and VRE.
    Mr. Moran of Virginia. It is not the passengers inside the 
rail cars I am worried about, it is a terrorist outside 
shooting through, puncturing the walls of a freight train that 
might carry lethal materials.
    Mr. Lockwood. Yes, sir. Moving from the passenger side to 
the heavy rail side, to the hazardous materials side, there are 
actions and activities within the Department of Homeland 
Security. I know some of that has been briefed and the local 
level back over to D.C. Council members with regard to 
legislation they have had, I know there is a prototype in place 
with regard to monitoring the rail corridor, a sensing network 
that has been discussed for the rail corridor to provide 
additional protective measures but I am not prepared to talk in 
details at this time.
    Ms. Childs-Pair. Mr. Moran, I can add to that. The D.C. 
City Council in concert with the Mayor has been looking at that 
and actually came up with legislation to try to reroute the 
train system when they have the chlorine or to stop it 
altogether, realizing that it is within the densely populated 
areas. One of the things they made clear to us, and probably 
what we need your help on, is that they could federally pre-
empt any law that we would put into legislation so that they 
would make it null and void. That is one of the areas we have 
been working on.
    Mr. Moran of Virginia. I am glad the D.C. Council is 
looking at it. It runs right under the Capitol, as you know, 
the Capitol grounds. I don't want to give any ideas to 
terrorists but when you think about some of the things that 
could happen and we look back and think, my God, why didn't we 
think of that. That seems to be one of those possibilities, one 
of those threats.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. I want to get to the issue of grants. We 
are talking about giving resources and we have talked about a 
lot of different issues today but bottom line, our local 
governments need the money to be able to move forward.
    I want to refer you to a situation that really happened in 
the State of Maryland, the central part of Maryland and the 
Eastern Shore where you have two jurisdictions attempting to 
work regionally on an interoperability type program. I think 
Mr. Schrader you are aware of that situation where the good 
news was the grants were received, they were OK'ed, the 
Department of Justice but then you have two different 
requirements of instructions once the grants are given. One had 
to do with the Cops Program and the other had to do with I 
believe FEMA. So one program said that you had to do one thing 
and one said you had to do another, so all of a sudden we are 
promoting regionalism, we are trying to do the best we can to 
pull it together and when we put forth a system or a plan, then 
our Federal instructions, our grants have mixed messages. This 
happened to be within the Department of Justice or whether it 
could be within Homeland Security or together.
    I would like you to comment, first, maybe Mr. Schrader and 
then maybe Mr. Lockwood or anyone else on the panel, about what 
you think we need to do because as Congress there are certain 
things we can do, we can pass laws, at least we can try, and I 
would think we have to fix the grant process so that it goes 
directly.
    As a former local elected official, I believe the money 
needs to go directly to the locals. I am sure Mr. Schrader, 
representing the State, you may disagree, but I have seen many 
times where grants would come and if it came through the 
Federal/State process have the money is gone before it even 
gets to where it needs to be versus the Cops Program that goes 
directly as long as you can justify it.
    Could you please comment on what you would recommend we 
need to do to fix this grant situation to get the resources and 
the money, especially when you are dealing with regional 
jurisdictions that don't have a lot of money to begin with.
    Mr. Schrader. Yes, Congressman. It is a pleasure to be here 
with you.
    In this particular case, the State has been working 
actively to coordinate these grants regionally in 
collaboration. We met as recently as yesterday morning with the 
city of Baltimore in working on this particular problem with 
the Cops grant. This CMARC project is what it is called for 
central Maryland. It does have the Cops Grant Program.
    Mr. Ruppersberger. Why don't you explain what that is.
    Mr. Schrader. There are two major grants that were issued 
last year for about $5 million plus each, one on the Eastern 
Shore of Maryland and the other in the Central Maryland region 
focused on Baltimore and the surrounding counties. Both 
projects are focused on using what are called, and I apologize 
for the acronym, NIPSPACS channels. There are five channels 
that can be used for communicating emergency messages. Those 
two pilot projects are being developed.
    The good news is that we have been coordinating both these 
regions at the State level and recently through the Urban Area 
Work Group, which is a group that has each of the executives 
and central Maryland has appointed two people and working 
through that group, they have been coordinating this particular 
grant.
    Mr. Ruppersberger. Let me get to the bottom line which is 
because of the fact there were mixed messages and instructions 
on the grants, we were not able to get the matching funds from 
the different jurisdictions, correct?
    Mr. Schrader. We are actually meeting with DOJ on July 7th.
    Mr. Ruppersberger. I know our Baltimore delegation sent a 
letter to Secretary Ridge to try to deal with it.
    I want to ask this question and anybody can answer because 
I don't have a lot of time. Based on the issue of the mixed 
message with grants, different instructions, the problem we 
have is we get the grant and then we don't know how to fulfill 
it. What can the Federal Government and Congress do to help 
States and regional groups so this flexibility is built in 
through legislation?
    Mr. Foresman. Three quick answers, Congressman. First, we 
need to manage the expectations. The vast majority of Federal 
grants are reimbursement programs. There is no such thing as 
the money being missing when it gets down to them because it is 
based on local or State government submitting to Federal 
agencies requests for reimbursement. So we have to manage the 
expectations and make sure all of us understand the vast 
majority of Federal grants are reimbursement grants.
    Second, we have to be careful to not look at 1 year's worth 
of grant activity and go in and make major changes. My brother 
is a fire chief in a small rural department in western 
Virginia. I love him to death but his ability to adjust to 
multiple grant programs is minimal sometimes and if we change 
it every year, it causes him even more angst. The issue is we 
have to stay the course in terms of the mechanics for the 
grants processes but clearly the one thing this Congress could 
do is to work to make sure the Federal agencies come up with a 
standardized grants management process.
    Mr. Ruppersberger. That is the answer I would hope I would 
hear, to standardize. It seems to me you need to recommend to 
us what those standards need to be. We have a lot of bills in 
the hopper right now about standards but from your perspective, 
from local moving up to Federal, we need to know that.
    Mr. Foresman. Congressman, I would just echo that it is 
going to require a disciplined approach on the part of Congress 
that as people change they don't like changes. It is going to 
require us to go through two or three grant cycles to see 
whatever a disciplined approach is, whatever a standardized 
approach is, whether it is going to work over the longer term.
    Mr. Ruppersberger. Thank you.
    Chairman Tom Davis. Thank you very much.
    Let me thank this panel. This has been very illuminating 
for the Members. I will dismiss you with our deep thanks and we 
will take a 2-minute recess before we call our next panel.
    [Recess.]
    Chairman Tom Davis. We have a great panel. We have Anthony 
Griffin, county executive, Fairfax County, who I have had the 
pleasure to work with for many, many years, about 20 years; we 
have Mary Beth Michos, the fire chief for Prince William County 
and the last year's Fire Chief Magazine career chief of the 
year; James Schwartz, director of emergency management, 
Arlington County and the new Fire Chief for the county 
effective this coming Monday. Congratulations, I am a veteran 
of the Cherrydale Fire House where I did my Cub scout meetings 
as a kid. We have also have Dr. Jacqueline F. Brown, chief 
administrative officer, Prince George's County. I want to thank 
her for being here as well.
    [Witnesses sworn.]
    Chairman Tom Davis. We swear everyone here because we are 
the major investigative committee in the Congress. That is just 
what we do. Once we had the opportunity to have Wes Unseld, the 
general manager of the Washington Bullets, now the Wizards, in 
front of me and I got to ask him under oath if the Bullets 
would have a winning season. He said, I can just promise you 
exciting basketball. I think they won 13 games the next year. 
We almost hauled him up here on perjury but we figured he was 
giving his best effort.
    Tony, we will start with you. Thank you very much for your 
leadership in the region and for being with us today. I would 
note for Mr. Schrock that Mr. Griffin when he leaves has to go 
down to a regional meeting in Virginia Beach in your district, 
so you don't want to keep him too long.
    Mr. Schrock. If he has room, I will go with you.

  STATEMENTS OF ANTHONY H. GRIFFIN, COUNTY EXECUTIVE, FAIRFAX 
 COUNTY; MARY BETH MICHOS, FIRE CHIEF, PRINCE WILLIAM COUNTY; 
  JAMES SCHWARTZ, DIRECTOR OF EMERGENCY MANAGEMENT, ARLINGTON 
COUNTY; AND JACQUELINE F. BROWN, CHIEF ADMINISTRATIVE OFFICER, 
                     PRINCE GEORGE'S COUNTY

    Mr. Griffin. Thank you, Chairman Davis, for the opportunity 
to testify before the Committee on Government Reform on the 
subject of grant management and coordination for emergency 
management from the perspective of Fairfax County.
    I am Anthony H. Griffin, county executive for Fairfax 
County, an appointed position.
    Grants for homeland security have been allocated to Fairfax 
County in three ways: direct allocation by the Federal 
Government; allocation through the State of Virginia; and 
indirect allocation through funding to the National Capital 
Region for enhancing the region's response to potential 
terrorism.
    The county has used the money to supplement its emergency 
preparedness efforts to include strengthening emergency 
planning programs, conducting training and exercises and 
purchasing equipment directly related to emergency management 
and response. The Fairfax County Office of Emergency 
Management, a newly created agency, is the agency responsible 
for managing homeland security grants. An interagency committee 
assists OEM in identifying unmet needs and matching them to 
grant funding opportunities.
    The following is illustrative but not limited to in how 
grants funds have been used. Equipment has been purchased for 
an alternate emergency operations center located in the 
county's government center to be operational by the beginning 
of August of this year. A new fire department mobile command 
post has been purchased, screening devices and security cameras 
have been purchased, protective gear for first responders has 
been or is in the process of being acquired. A fully 
operational Citizens Corps program is being established with 
several hundred citizens having completed community emergency 
response team training. A data base has been established to 
track and notify these volunteers.
    A Medical Reserve Corps has been developed with 5,200 
volunteers. In October of last year, the MRC participated in a 
full scale dispensing site exercise at a local high school. A 
new terrorism annex has been written for the county's emergency 
operations plan. The annex is more detailed and outlines roles 
and responsibilities for county agencies in the event of a 
nuclear, chemical or biological event. In 2003, the county 
conducted a tabletop exercise with a dirty bomb scenario with 
more than 100 participants from a cross section of agencies and 
volunteer groups.
    The list of accomplishments is a beginning in the county's 
efforts to be responsive in case there is a significant 
terrorism event. Training and a shift in readiness is underway 
but emergency preparedness will require sustained attention 
over the next several years. The grant funding must continue if 
these efforts of preparedness are to succeed. The Federal 
Government should review the criteria for the expenditure of 
grant funds because in some instances, the preparedness needs 
of a community are not supported by current regulations. For 
example, the county's largest expenditure by far is for a new 
emergency operations center to include an emergency 
communications center. The prohibition against bricks and 
mortar makes this facility a major funding challenge for the 
county.
    Finally, while this is not a grant issue, one area of 
emergency preparedness that needs continuous focus in the NCR 
is the coordination and communication of Federal agencies with 
State and local governments. Federal agencies need to be 
continually encouraged to work with State and local governments 
on the timely sharing of information and the integration of 
Federal agency planning with State and local plans. The 
implementation of the new National Response Plan and the 
National Incident Management System is a good beginning but it 
is only that.
    In closing, significant progress has been made but 
significant work on readiness remains and a partnership between 
the three levels of government is necessary to enhance our 
success. In particular, I want to thank the chairman for his 
support of the county and its efforts to enhance security and 
emergency response.
    If I may, listening to the earlier testimony, wearing my 
hat as chairman of the Chief Administrative Officers for the 
Washington Metropolitan Area, I did want to note for the record 
that of the $60 million that has been allocated in fiscal year 
2003, those funds have been distributed and are in the pipeline 
for the acquisition of appropriate training and equipment and 
approximately 80 percent of the $29 million available, the 2004 
money, has similarly been allocated. On July 7, the CAOs, 
working with the senior policy group, will continue the 
discussion about the remaining allocation of the 2004 money and 
will begin discussion about our priorities in anticipation of 
appropriations of 2005 money.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Griffin follows:]

    [GRAPHIC] [TIFF OMITTED] T5626.047
    
    [GRAPHIC] [TIFF OMITTED] T5626.048
    
    Chairman Tom Davis. Thank you very much.
    Tony, thank you very much.
    Chief, thanks for being with us.
    Ms. Michos. Thank you for this opportunity to testify 
before your committee today. My name is Mary Beth Michos and I 
am the chief of fire and rescue and also an assistant emergency 
services coordinator in Prince William County, VA. I am here 
today to provide testimony on Prince William County's 
experience with emergency preparedness coordination, being part 
of the National Capital Region with the emphasis on our grants 
management and coordination.
    We are a rapidly growing community and we are challenged on 
a daily basis from this growth to provide our basic services of 
police, fire and emergency medical services, but in addition to 
this, now we are also being challenged by the emerging issue of 
keeping our community safe in the event of terrorism. As you 
know, this is very costly and we are very grateful that the 
Congress has allocated homeland security funds for States and 
local jurisdictions. We are also very grateful that you have 
recognized our vulnerability here in the National Capital 
Region and have provided us with the Office of National Capital 
Regional Coordination.
    Over the past 2\1/2\ years, Prince William County has been 
fortunate in that we have received $5.3 million in Federal 
funds for emergency preparedness. Right now we have staff 
sequestered and they are working on finalizing a grant request 
for another $905,000 which has to be submitted tomorrow.
    The first $4.3 million for the county was a direct earmark 
in a supplemental appropriation bill passed shortly after the 
September 11 terrorist acts. These funds have been expended on 
equipment and needed training to strengthen our ability to be 
first responder in the event of weapons of mass destruction 
incidents. Additional resources are being allocated to Prince 
William County through the Urban Security Initiative 
administered by the Department of Homeland Security.
    Our Chief Administrative Officers have been very involved 
in working with this and this has allowed for range of 
emergency service functions within the region to collaborate to 
identify regional solutions that are beyond the scope of what 
we could do on an individual basis as a local jurisdiction.
    We do appreciate all the resources that Congress has 
provided to local governments and first responders. However, it 
is important that you know that performing the processes to 
assess our capabilities, identify our vulnerabilities, develop 
plans and needs assessments for our homeland security 
preparedness is both highly staff and time intensive. The 
efforts to conduct this work in my department have taken over a 
year and despite the intense work and high quality of the 
strategies that resulted, we still find that when we get 
information on grants that we have to complete, there is still 
additional information that is wanted and often times the 
timeframes are inadequate.
    It may appear that the timetables the Federal and State 
governments place on grant deadlines are sufficient for local 
governments. However, by the time these grant processes go 
through the Federal Government, come down through the State, we 
generally only have a few weeks to do our work to submit the 
grants. During these few weeks, we have a lot of coordination 
with other agencies throughout our county government, agencies 
funded both by State and local governments. In our case, we 
have four incorporated towns we have to coordinate with, 
volunteer agencies such as our volunteer fire and rescue 
companies and then we have to assess our local ability to 
manage the ongoing and operational and replacement costs of 
what we are requesting in these grants because that money is 
not available from the State or the Federal Government. Last, 
we have to obtain authorization from our Board of County 
Supervisors. While we have developed a priority list of needs 
to guide us in developing our requests, the workload associated 
with these requests has increased as our staff is required to 
attend numerous planning and coordination meetings, locally, 
regionally and within our State. To give you an example, in the 
last 18 months my meeting schedule alone has more than doubled 
and I am just one member of our department who attends these 
meetings. I am just one agency head within the county 
government attending these meetings.
    Recognizing the increased workload and short turn around 
times, in Prince William we have hired an emergency services 
coordinator and some assistants to coordinate all these 
processes. We are fortunate that Prince William County has the 
resources to staff these positions because that funding isn't 
available from other sources.
    As far as gaps in emergency preparedness in the National 
Capital Area, we feel that the State and Federal Governments 
don't have the same degree of coordination and cooperation that 
we are seeing on the local level. This sometimes hinders our 
local and regional efforts. A serious obstruction does exist to 
effective mutual aid assistance between Virginia, Maryland and 
the District of Columbia. Congress must act to address the 
liability and indemnification issues which arise when emergency 
aid is provided across boundaries. The need for legislation for 
homeland security has been specifically addressed by the 
Governors of Maryland, Virginia and the Mayor in their eight 
commitments to action with the Department of Homeland Security.
    We are very appreciative of the efforts made by ONCRC of 
the Department of Homeland Security, there is still a lot of 
work to do. We can't lose sight that, while we are doing this 
work we still have our normal daily incidents to respond to and 
normal daily workloads to handle. Whatever the Federal 
Government has local jurisdictions do with regard to 
vulnerability assessments, grant applications, reimbursement 
requests or other bureaucratic processes, it ought to be done 
to fill a clear need and with our input to make sure that what 
is being done is going to be of help to us. We don't mind doing 
the work at the local level if we know it is going to improve 
the situation.
    Prince William County participated in the required 
vulnerability assessment that took away 10 staff members for a 
2-week period last year. This effort has given back very little 
to our community and although we know that our fiscal year 2004 
and 2005 security grants will be evaluated against this, we are 
able to articulate our vulnerabilities with a higher degree of 
confidence than this document is giving us.
    In summary, Prince William County is in a much stronger 
position to respond to any manmade event, whether chemical or 
biological than we were before September 11. There is also 
better coordination and cooperation at the local and regional 
levels. Our predominant focus has been to keep pace with the 
requirements of the grants as well as to make sure that we are 
doing the right things to be as prepared as we possibly can.
    Our senior officers and administrative staff have 
justifiably been inundated with homeland security duties. I 
believe it is essential for all levels of government to find 
new and better ways to work with each other so that we can 
optimize the limited time and staff that we have to get the 
results you want. I will be satisfied when we reach a point 
where all of our firefighters, our police officers, and our 
EMTs express their confidence that they feel they are capable 
to respond effectively to any WMD contingency.
    In closing, I want to thank you again for giving me this 
opportunity and I will be glad to answer any questions later.
    [The prepared statement of Ms. Michos follows:]

    [GRAPHIC] [TIFF OMITTED] T5626.049
    
    [GRAPHIC] [TIFF OMITTED] T5626.050
    
    [GRAPHIC] [TIFF OMITTED] T5626.051
    
    [GRAPHIC] [TIFF OMITTED] T5626.052
    
    Chairman Tom Davis. Thank you very much.
    Chief Schwartz, welcome.
    Mr. Schwartz. My name is Jim Schwartz. I am the director of 
emergency management for Arlington County and as the Chair so 
graciously acknowledged at the beginning, I will assume the 
position of fire chief for Arlington County next week. I also 
served as the incident commander for the September 11 response 
to the Pentagon.
    I appreciate the opportunity to provide testimony on the 
issue of homeland security in our National Capital Region 
today, and I am grateful, Mr. Chairman, for your leadership in 
trying to ensure as effective and efficient a process as 
possible to provide resources to the level of government with 
the greatest responsibility to respond to an act of terrorism, 
not just to protect that Government's citizens and resources, 
but in this region, to also protect Federal employees and 
Federal resources. Our county is not only home to the Pentagon, 
but also provides approximately 60 percent of its commercial 
office space to Federal agencies. Our county bears significant 
responsibilities for protection and response to critical parts 
of the Nation's national defense and anti-terrorism capacity.
    The successful response of Arlington and its regional 
partners in the wake of the attack on the Pentagon on September 
11 underscores the fact that the National Capital Region has a 
strong foundation upon which to build. While the incident at 
the Pentagon paled in comparison to the attacks in New York, it 
was, nonetheless, an indication of the years of work of 
regional leaders. We knew we had the capacity to coordinate 
responses, and, indeed, based upon those experiences, we think 
we have made significant improvements since then.
    It is clear that continued progress is needed, and, 
therefore, we regard this hearing as a positive opportunity. 
This morning I would like to focus my testimony on the priority 
setting process, the undermining uncertainty of the Federal 
funding process, the lack of coordination of the plethora of 
Federal funding streams, the inadequacy of current assistance, 
the significant administrative burden imposed on local 
government recipients, and mutual aid indemnification.
    Former Utah Governor and current EPA Administrator Michael 
Leavitt made the point after his State hosted the Winter 
Olympics that we really need a new paradigm in our 
intergovernmental anti-terrorism process. As he said, it can no 
longer be a top-down process; rather it must be some 
combination of bottom-up, horizontal, and top-down. It must 
more closely resemble emerging global corporate trends of 
governance.
    Ironically, it was our National Capital Region that brought 
the issue of interregional coordination with Federal support to 
the Federal Government's attention after the 1995 incident in 
the Tokyo subway system.
    Our efforts led to the first locally staffed terrorism 
response team in the Nation. That team, the Metropolitan 
Medical Strike Team, was the predecessor of the Metropolitan 
Medical Response System [MMRS], which remains the only 
federally funded program to require a systematic and integrated 
regional approach to planning and response to acts of 
terrorism. It is a model that should be expanded, not scrapped.
    The Federal Government should ensure a meaningful role for 
the level of government most affected by terrorist threats and 
should shift to a threat-based formula that more appropriately 
recognizes greater responsibilities for those local governments 
that will be first to arrive, render aid to casualties, and 
manage the incident. Local governments should not be junior 
partners.
    We appreciate that there have been adjustments made in the 
NCR to ensure a more meaningful process for local input for the 
establishment of homeland security priorities in the National 
Capital Region. We encourage the direction of the change and a 
longer term commitment to our regional governments' critical 
role in the provision of homeland security.
    As said by other witnesses, there is a significant 
uncertainty in the Federal funding process. Federal funding 
shifts from year-to-year, even after grant programs are 
decided; decisions are made to retroactively cut funds and 
transfer them to other uses. It is difficult to discern whether 
the war on terrorism is a year-to-year effort, or a long-term 
commitment.
    The Federal process makes it difficult to develop a longer 
term plan and meaningful first responder infrastructure. We 
would respectfully suggest, Mr. Chairman, consideration of 
consolidating the many and varied Federal grant streams in the 
NCR into a 5-year block grant program. Such a change would 
significantly increase our regional capacity to put together 
the infrastructure necessary to make real and sustainable 
changes.
    There remain too many funding streams, often not 
coordinated at the Federal and State levels. They reflect 
competing purposes at the Federal level, but immense 
administrative demands at the local and regional level. It 
means we devote too much time to trying to determine what 
Federal or State officials want, instead of focusing on the 
most critical needs in the region.
    The Homeland Security Act of 2002 created the Office for 
National Capital Region Coordination within the Department of 
Homeland Security in recognition of the vulnerability of the 
region, its high risk of terrorism, and the unique and dominant 
Federal presence. Despite that recognition, the region receives 
less in Federal per capita assistance than Wyoming.
    We appreciate that there are serious debates in the House 
about modifying the formula, but we think any discussion of how 
terrorism funds are allocated should reflect the unique 
characteristics of this region. We believe it would be 
constructive to ask DHS to establish baselines--basic 
requirements for local governments based upon tiers of risk 
assessment--so that Federal grant funds meet fundamental needs 
and build capacity from there.
    Because of the many different grants and funding streams, 
Arlington devotes enormous administrative and management 
resources to emergency preparation and prevention which are 
ineligible for reimbursement. This diverts resources from 
priority needs, again, so that we are forced to devote 
resources to a plethora of grants and grant management 
requirements that detract from the job at hand.
    As the House and Senate work to reauthorize a 6-year 
surface transportation program, we believe the concept has 
merit for emergency preparedness. To the extent that Federal 
funding beyond next September 30th, on an annual basis, remains 
uncertain, it directly affects local budget decisions about 
whether to make longer term investments in human and capital 
infrastructure to prepare and respond, or whether to make 
short-term purchases. This uncertainty is increased by 
reprogramming requests made by the Department of Homeland 
Security in the last 2 months of funds already appropriated by 
Congress. Can you imagine the construction of the mixing bowl 
project or the new Wilson Bridge in such circumstances?
    I am going to leave the rest of my testimony for the 
record. I am obviously over my time but I appreciate the 
opportunity and would look forward to answering any questions 
you may have.
    [The prepared statement of Mr. Schwartz follows:]

    [GRAPHIC] [TIFF OMITTED] T5626.053
    
    [GRAPHIC] [TIFF OMITTED] T5626.054
    
    [GRAPHIC] [TIFF OMITTED] T5626.055
    
    [GRAPHIC] [TIFF OMITTED] T5626.056
    
    [GRAPHIC] [TIFF OMITTED] T5626.057
    
    [GRAPHIC] [TIFF OMITTED] T5626.058
    
    Chairman Tom Davis. Chief, thank you very much.
    Dr. Brown, thanks for being with us.
    Ms. Brown. Good morning, Chairman Davis and committee 
members. I am grateful for the opportunity to appear before you 
today to testify on emergency preparedness in the National 
Capital Region with an emphasis on first responder grant 
management. This subject is very critical to Prince George's 
County where over 835,000 residents live and over 100 different 
languages and dialects are spoken.
    During fiscal years 2002 and 2003, Prince George's County 
received approximately $10.4 million dollars in grant funding 
for items such as: Hazardous materials truck, decontamination 
supplies, decontamination vehicle, breathing air units, 
incident command training, incident command vehicles, radios, 
radiological detection unit, tanker unit, keycard control 
system, salaries, personal protective equipment (level 
A,B,C,D), CAD upgrades, emergency management salaries, disease 
surveillance system, epidemiologic response plan, high speed 
Internet connection, critical information network, training of 
key public health officials and citizen volunteer training.
    There are several challenges in obtaining Federal funding 
for emergency preparedness. Timeliness is a major one. There 
are delays in receiving money from the State. Once the Federal 
Government decides how much each State is to receive, the State 
must then determine the recipient amount to be awarded. The 
assessment phase should be a clearly defined process. For 
instance, in 2003, a State assessment input session was held at 
Dulles Airport. There were problems and it could not be 
completed at that time. There were limited resources available 
to assist the county in preparing for the completion of this 
process. However, that assessment has been and continues to be 
the qualifying factor for funding over the last 2 years without 
any opportunity for adjustments.
    There is also a need for the clarification of processes in 
areas where there is State and regional funding sources. At 
times there appear to be overlaps in the accomplishments of the 
two funding sources, and that has been referred to before.
    Advance notice of grants is going to be very important for 
us. We recently learned that at least $2 million had been 
allocated to our county via a reimbursable grant. Funds for 
this amount were unavailable; therefore, we were forced to go 
into unfunded and unplanned forward funding. So the timeliness 
of things makes a lot or sense. Additionally a lack of 
consistent awards causes a deficiency in the algorithm of the 
budget process. Understanding the reimbursement basis of grant 
funding especially as it relates to jurisdictions within the 
State and the county would be a tremendous benefit.
    The National Incident Management System is the most recent 
criteria that must be adhered to regarding upcoming funding. We 
are looking forward to the training coming up on the 28th. We 
really need to make sure everybody understands this.
    We also have challenges in terms of organizing and 
implementing efficient and effective regional preparedness 
programs. While most events in this area would become a 
regional issue, there is no regional emergency operations 
center, or no regional emergency coordination center from which 
to command activities presents a problem. We are fortunate to 
have a regional emergency coordination plan and this area could 
be better served with a regional emergency operations center 
with regional emergency response teams. with so many 
jurisdictions in the NCR, collaboration is a real challenge.
    There are several gaps which remain in the emergency 
preparedness of the NCR Interoperability issues still exist and 
are at the top of the list. This issue is extremely expensive 
and we are still experiencing inter and intra communication 
deficiencies within this county. There is an inability for us 
to speak with each other except through patching. There is also 
an inability to speak with our neighbors, our regional partners 
via 800 MHz.
    There should be regional coordination of emergency plans. 
All plans in the region should be shared among the various 
jurisdictions. Discussions are needed concerning mass 
evacuations that would include naming evacuation 
destinationsites throughout various counties. There is also a 
need for clear and concise intelligence information. The Office 
of the National Capital Region Coordination has been effective 
in setting priorities but standards have not been set in many 
areas including standards for an Emergency Operations Centers.
    The type of guidance that we would like to see from the 
Department of Homeland Security may take time to accomplish. 
There should be a regional emergency operations center to 
include the development of a regional response team. Would like 
more formal training regarding the National Incident Management 
System. It appears that the only training that is being offered 
is paid training conferences and seminars--other than Incident 
Command System. Formal training for the National Incident 
Management System so that the jurisdictions will be prepared to 
comply. The development of standards for distribution, 
management and oversight of the grants; a clearer direction on 
the States role as we are a member of a State and a regional 
partner; the provision of increased assistance in the 
development of planning concerning cybersecurity and; the 
enhancement of grant training and technical assistance will all 
improve the guidance needed in the National Capital Region.
    There really should be a regional coordination of emergency 
plans. All plans in the region should be shared among the 
various jurisdictions and I think we are moving toward that in 
a manner that is worthwhile applauding.
    In the end, I think what I would like to say is that there 
are three questions that guide our work locally in Prince 
George's County. Those questions are, what is it that we wish 
to achieve regionally and locally in terms of emergency 
preparedness and by when. That is the standards and the 
priorities issue. How will we achieve this, task time, talent, 
costs, both fiscal and human? That is the multiyear strategy 
piece. The final question is how will we know when we have done 
it well? What are your performance measures? What are your 
performance measures processwise, productwise, perceptionally 
and politically because that is the reality that we live in.
    We will continue to work with our regional partners to 
develop a management framework that truly reflects continued 
improvement and accountability for our citizens. We would hope 
that these three questions that guide us locally will in fact 
begin to guide us in our framework as we move forward. We also 
need to address the fact that we do not have regional standards 
yet for emergency preparedness. That is critical.
    Thank you, so much.
    [The prepared statement of Ms. Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T5626.059
    
    [GRAPHIC] [TIFF OMITTED] T5626.060
    
    [GRAPHIC] [TIFF OMITTED] T5626.061
    
    Chairman Tom Davis. Thank you all very much. I will start 
the questioning with Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman and thank you all very 
much for being here.
    I want to note for the record that Tom Lockwood from the 
first panel is here and I think that is a very good thing 
because he cares enough to hear what these folks have to say. 
These folks are at the tip of the spear as we say in the 
military and when the balloon goes up, they are going to be the 
first ones on the scene as they were at the Pentagon that day 
because I saw them.
    Chief Schwartz, you said the death toll was not as great at 
the Pentagon as it was in New York and you are right, but had 
that wedge at the Pentagon been fully occupied as it was about 
to be because of the reconstruction, I believe the death toll 
there would have been far worse than it was in New York City. 
It is just a blessing that they weren't.
    You are absolutely right, junior partners no. You have to 
be full partners in this effort because you are the ones we are 
going to expect to be on the scene from the very first moment 
and we need to make sure we here do everything we can to help 
you.
    Dr. Brown, you talked about reimbursable grant. That is 
kind of a contradiction in terms, isn't it? I thought a grant 
was something you gave to people.
    Ms. Brown. What happens is you get the awards and then we 
forward fund it and pay for it and then we can get reimbursed. 
That is the nature of some of the awards that are coming.
    Mr. Schrock. I see. I don't know how many of you really 
listened carefully to what my friend, Mr. Moran, was saying 
during the last round. He was talking about the rail and 
concerns he has. I have the same concerns and the same concern 
I expressed to you all when I go through the Hampton Roads 
Bridge Tunnel every week, as you will today, Mr. Griffin, I 
have with the trains because the trains run right under my 
office. I am not going to mention the name of the building to 
give anybody any ideas but that is a real concern. I think if 
we are not careful, something is going to happen and I am 
genuinely concerned about that.
    Mr. Lockwood in the last panel advised that they are 
working with the Joint Terrorism Training Task Force and I am 
wondering how the Federal Government is managing to share 
intelligence with uncleared, non-Federal employees such as the 
local responders as you and your staff and are procedures 
working adequately to get non-Federal employees cleared to 
receive this information? Do we in Congress need to address 
this specifically to make sure you do get the information you 
need so that somebody doesn't sit on it which could be the 
piece of the puzzle to help solve the problem?
    Ms. Brown. The intelligence piece becomes very important, 
if I am understanding your question correctly and the clearance 
of the people to receive it. That was an issue in our written 
testimony that the triggers for intelligence that tend to be 
general and kind of nebulous still trigger things locally for 
us to do. As Chief Michos was saying, it does bring a labor and 
a personnel and resource intensity to our budgets and to our 
jurisdictions. The clearance would be good.
    Overall, what we need is if this is a Federal piece, what 
are some of the standards? Those are the standards that perhaps 
the States can adhere to. If the States are the ones that are 
going to set the standards for emergency preparedness including 
security levels needed for personnel to receive certain 
intelligence, that is the kind of guidance we need. This is an 
important piece but I believe that kind of guidance really must 
come from either the Federal Government and/or the States in 
conjunction with the Federal Government. This is not something 
localities are set up to do in terms of high level security 
clearance for national things. They are geared to do it for 
police departments, to do it for certain first responders but 
if you are in a jurisdiction like mine where we have tried to 
mirror the Federal structure and set up an Office of Homeland 
Security with a separate director and merged some first 
responder offices, then those security clearances that we need, 
we are making our best guess about what you need and hiring 
accordingly but we certainly need that kind of guidance. It 
would be most welcome.
    Mr. Schrock. Chief.
    Ms. Michos. At the local level, traditionally the fire 
service has been kept out of the intelligence loop.
    Mr. Schrock. Kept out of?
    Ms. Michos. Traditionally that is what has happened. 
Several years ago, the FBI did appoint a liaison in this region 
to the fire service and it has been invaluable and I think Jim 
found this to be an important asset for him at the Pentagon. 
The liaisons have been very active in coming to our meetings 
and planning with us and providing us with a regular line of 
information that we could share with our folks so that we have 
increased awareness of things that are going on when the 
intelligence is available.
    Mr. Schrock. So they are starting to include you?
    Ms. Michos. Oh, yes, and that has been very valuable to us 
over the last few years.
    Mr. Schwartz. The local jurisdictions that do pony up 
representatives to the Joint Terrorism Task Force do that 
without reimbursement. We do that at local cost, so the fact we 
are getting intelligence information and relationships that do 
exist are still on the backs of the locals to finance.
    I can tell you at a street level some of the difficulties 
we have even though we get good intelligence from the 
relationships that exist. Last year, the Federal Government 
decided to make available to local jurisdictions the bioassays 
that are used to test for biological agents, something the 
military has, a very good system for developing and they rely 
on those extremely well. It was decided that those bioassays 
would be available for local jurisdictions so hazmat 
technicians could use them in the street to assess the 
proverbial white powder calls and that sort of thing. What they 
would not give us, however, are what amount to the evaluation 
instruments so that once you use the assay and get an 
indication on it, you cannot read it, you have no way to 
evaluate what the ticket says because they kept that 
information classified. That is not shared with us. You can 
actually get it outside this country but you cannot get it 
inside this country.
    I use that as an example to say really our system of 
intelligence sharing is based on a cold war mentality. It is 
based on the nuclear threat of 50 years ago and somehow we have 
to come up with a system of what we commonly refer to as 
trusted agents, something that will recognize that there is 
another level of information sharing that can assist locals in 
those kinds of instances.
    Mr. Schrock. Kind of like buying a car without wheels?
    Mr. Griffin. If I may, after September 11, Fairfax County 
established an intelligence unit in our police department. We 
had disbanded it for budget reasons in the 1990's but that unit 
was so successful, the FBI asked to join it. Again, I would 
underscore Chief Schwartz's point that is on our nickel. We 
have since, as a county, taken the lead in terms of forming an 
intelligence unit on a regional basis in northern Virginia. 
Again, that is on our nickel.
    One of the hats I wear is as director of emergency 
management but the only access I have to intelligence is 
through my police chief who has top secret clearance but that 
individual needs to be very circumspect in terms of what they 
tell me. I think that kind of sharing of information can be 
improved. I don't necessarily have any answers but it can be 
better.
    Mr. Schrock. So the chief of police who reports to you has 
a top secret clearance and you don't?
    Mr. Griffin. That is correct. The initiative to get the 
police chief's top secret clearance only occurred after 
September 11 and it took almost 2 years to happen.
    Mr. Schrock. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Mr. Ruppersberger.
    Mr. Ruppersberger. The 911 Commission cited a lack of 
communication between Federal, State and local agencies as one 
of the biggest failures of the Government on September 11. If a 
catastrophic event were to occur in the capital region today, 
is there any standard protocol for different agencies 
communicating together? Also, is there a way that local law 
enforcement can communicate with the military?
    Mr. Griffin. I will start that if I may. One of the chief 
failures, as you noted, after September 11 particularly in the 
Washington region as related to communication is we did not 
have good regional communication. I believe in terms of the 
incident itself there was good communication because most of 
the agencies transitioned to the 800 MHz radio system that 
allowed interoperability between organizations.
    I was Chair of the Chief Administrative Officers at that 
time and I did convene a conference call of all the chief 
administrative officers but it occurred approximately 8 hours 
after the initiation of the events on September 11. To address 
that, we have created what we call the RICCS system, the 
Regional Incident Communication and Coordination System which 
takes advantage of the current technology. That system is in 
place and is practiced on a regular basis. It now enables 
myself or others depending on where the event occurs to convene 
a conference call in less than 30 minutes. The RICCS system is 
set up such that it is not just for the chief administrative 
officers, there are groups of individuals by discipline that 
have been created who also have access to that system, be it 
fire chiefs, police chiefs, transportation officials, health 
directors. We are even getting the hospital system integrated 
to that system.
    Not all events that occur in the region need to be elevated 
to the chief administrative officers but we are encouraging the 
various disciplines to use the system because it really does 
enhance the communication.
    Mr. Ruppersberger. Any other comments?
    Mr. Schwartz. I would like to add that when we talk about 
the communications problem as it relates to interoperability, 
there are different layers. Mr. Griffin identifies a layer that 
the chief administrative officers would use. Communications on 
the incident at September 11 at the Pentagon were largely good 
for the response. We are never going to solve the problem of 
getting everybody on a common frequency. In fact, obviously for 
the Pentagon response, we had representatives from DOD that 
were a part of the unified command.
    Mr. Ruppersberger. You had representatives from Maryland, 
from Virginia and from Washington all together, correct, at the 
Pentagon?
    Mr. Schwartz. No, sir, we do it by discipline. We do it so 
that we have fire and EMS representatives, we have law 
enforcement representatives. There were Federal representatives 
because they have the lead agency responsibilities for acts of 
terrorism, namely the FBI, and we had DOD because it was their 
property and they brought a significant amount of resources to 
the incident.
    My point is that it is a unified command under a recognized 
incident management system that will do more for the 
communications interoperability problem than getting everybody 
on the same frequency and push to talk.
    Mr. Ruppersberger. Is that opinion shared throughout your 
industry?
    Mr. Schwartz. I believe it is. That is not to suggest that 
we don't need to continue to make advances across this country 
so that the kinds of situations that we have in the National 
Capital Region which is that almost all of the jurisdictions 
operate on common frequencies but if you start trying to put 
the FBI on our frequencies, the Department of Defense on our 
frequencies and every other Federal agency that would come in 
support of a local jurisdiction, we are going to have too many 
people operating on frequencies and they will be completely 
unusable. The incident management system has to be utilized to 
effect good communications.
    Mr. Ruppersberger. Let me ask you this broad question. If 
we could give you one thing here today to help you as relates 
to the whole communications, what would you want us to do?
    Mr. Schwartz. I would like Dr. Brown to answer that 
question because I think part of her remarks add another layer 
of communication which is the coordination among the Government 
entities that are overseeing a response.
    Mr. Ruppersberger. Dr. Brown.
    Ms. Brown. I am really grateful for this opportunity. One 
of the things that happens is when September 11 came in, people 
were growing. If you could see the localities, we were growing 
at our own rates. We had a regional awareness there but 
September 11 really brought it together in terms of looking at 
it regionally. Therefore, the issues of comparability and 
standardization of levels of ability and capability to respond 
all of a sudden became glaringly clear that we hadn't done it. 
Some of us don't have 800 MHZ, some of us are working out of an 
EOC that is an abandoned school building as a way to handle a 
jurisdiction with 835,000 people in the home of Air Force 1 and 
over 300 vulnerable places within the jurisdiction. So the 
larger picture for us in the Maryland region and in the region 
of the National Capital Region is if our people from the 
different areas had to go to different peoples' EOCs, could 
they even work the equipment, would they even be there, even if 
they were jointly trained and part of that equipment is 
communication. It is also communication at a level of being 
able to receive intelligence, be able to see the strategic big 
picture regionally and to deal with it.
    Until we bring everybody up to a minimum competency 
standard to receive the information, then we have a big hole of 
vulnerability and we need to address that. I understand that 
the removal of being able to do things with brick and mortar is 
kind of going against what it is we need to do but we need to 
look across the region.
    Mr. Ruppersberger. Who should determine what that standard 
should be?
    Ms. Brown. I think the National Capital Region. We would 
look for them along with input from, building input from the 
CAOs, from the Federal Government, from the military players, 
from all of the other ones that have the capability and the 
expertise.
    Mr. Ruppersberger. But who should that be, in your opinion, 
based on what you know?
    Ms. Brown. Who should be the one to set the standards?
    Mr. Ruppersberger. Yes.
    Ms. Brown. I would expect that it should come from the 
National Capital Region.
    Mr. Ruppersberger. Who do you think?
    Mr. Schwartz. I should say Congressman that there is a 
proposal in to the National Capital Region Office under the 
URASI grants to look at the issues of EOC interoperability so 
that we figure out exactly what those standards are and then 
how to apply future grant funds to each of the local EOCs so 
that they are interconnected, so that they can interoperate.
    Mr. Ruppersberger. Thank you.
    Chairman Tom Davis. Thank you very much.
    Let me ask just a couple questions.
    As the Office of the National Capital Region Coordination 
communicated to you the areas you are lacking in terms of being 
able to fulfill your duties and be able to respond to regional 
emergencies? They did, as I understand, an assessment last 
year. Have they communicated with any of you the shortcomings? 
Tony.
    Mr. Griffin. Initially, I think through the assessment 
there was an effort to identify what the deficiencies were in 
each jurisdiction and the Capital Region participated in that. 
Some of the difficulty and some of the friction early on 
occurred because having participated in that assessment, we 
didn't see the results of it and the Senior Policy Group made 
the initial allocations for the $60 million allocated to the 
National Capital Region based on that assessment. Not having 
seen it and not being sure what it was about and concern about 
the local jurisdictions being the local responders, the first 
responders, there was some friction there.
    I think that friction has been mitigated to a large extent 
because there was a recognition that the Senior Policy Group 
and the CAOs and the other players really needed to come 
together and participate together. I think by December we had 
reached that common ground and we have been working together I 
think pretty well over the last 6 months at better identifying 
what our gaps are and getting better participation from all the 
players in identifying what those gaps are. I think the Chiefs 
may have a perspective on that.
    Chairman Tom Davis. Yes, let me ask you. Ms. Brown.
    Ms. Brown. Taking off on what he said about the assessment, 
we have gotten some feedback and I guess our feelings on a 
local level are that it really wasn't truly reflective and we 
questioned at the time, the value of the tool that was being 
used but we did it like everyone else. So right now we are in a 
period where they are allowing us to look at the results of the 
assessment to do some tweaking since the future grant 
allocations will be based on the results of that but that was 
one thing I said, we put so much time and effort into it, 
didn't have any input when the tool was being designed or what 
were the things that should be looked at, so we are trying to 
make best with what we can right now based on the time and 
energy we have put into that.
    Chairman Tom Davis. Chief Schwartz.
    Mr. Schwartz. Just a couple of things. As has been said, 
the instrument was rather poor. One of the poorest parts of it 
was the threat assessment component, how we developed 
information on the threats that were germane to our area was 
extremely difficult. The other thing I would add is that since 
we are supposed to be operating as a region, it would have been 
beneficial if we had completed the instrument together as a 
region. Instead, we were stovepiped by jurisdiction, so we 
couldn't even learn from each other how we were inputting the 
data, what kind of elements, so that we could sort of shortcut 
the whole process and get to a point that we could all agree on 
what was going into the instrument. Largely it was an inventory 
of our capabilities.
    Ms. Brown. Right now we are very personality dependent. We 
have a group of people regionally and locally who want to work 
together who are determined to move forward with this from a 
regional standpoint to do the things that Tony is saying in 
terms of working together with the Senior Policy Group and all 
of this. I am very nervous about the fact that if any of us 
leave and a different headset comes in, where are the standards 
that say I don't care who you are, what are the standards of 
baseline competency necessary, not only in terms of personnel, 
things like communications, things like intelligence methods, 
things like equipment that is needed regardless of who you are 
and who sits in these seats, whether you have goodwill or not, 
these are the rules of play as it relates to emergency 
preparedness in the National Capital Region. Again, I believe 
those standards should come from the National Capital Region. 
We don't even have a National Capital Region EOC.
    Chairman Tom Davis. Thank you.
    Mr. Moran.
    Mr. Moran of Virginia. Thank you, Mr. Chairman.
    I am glad and appreciative that Mr. Lockwood stayed.
    I was reading the legislation that the Congress passed 
describing the responsibilities of the Office of National 
Capital Regional Coordination that was in the Homeland Security 
Act. They are to assess and advocate for the resources needed 
by State, local and regional governments. It is to provide 
State, local and regional authorities in the National Capital 
Region with timely information and technical support. It is to 
develop a process for receiving meaningful input from State, 
local and regional authorities in the development of homeland 
security plans and activities. It is for coordinating Federal, 
State, local and regional agencies and to ensure adequate 
planning information, sharing, training and execution and to 
serve as a liaison between the Federal Government and State, 
local and regional authorities to facilitate access to Federal 
grants and other programs. That is the function. That is why it 
exists and yet I have talked to each of the jurisdictions in my 
congressional district, Arlington, Alexandria and Fairfax 
County and all of them say that the lack of planning, 
preparation, orderly expectations of resources and what the 
requirements of those resources are going to be, the lack of 
that at the Federal level is seriously hamstringing if not 
crippling the ability of local governments to do their own 
planning and resource allocation. In other words, you can't 
plan and allocate your resources unless you know what resources 
are coming into the locality so you can match them, so that you 
can pull the personnel, the equipment, the facilities together 
so that you can fulfill your responsibilities.
    I suppose I should say when because that is what we are 
told by Secretary Ridge but I will say if we have a terrorist 
attack, we are going to turn to the local responders and look 
for what went wrong because nothing is going to go perfectly 
and the first thing we are going to be told is that even though 
Congress provided the resources, they weren't made available 
and we weren't even told when they were going to be made 
available for what purposes. So this is the problem. This is 
the reason for the hearing. This is the reason why Chairman 
Davis got on top of this, to say, look, I don't know what more 
we in the Congress can do but to provide the money and provide 
the legislative authority and the mandate but while the money 
is provided, the mandate is there, it is not being implemented.
    My question is a pretty basic one that I am going to ask 
each of you who are responsible for your jurisdictions, how has 
this backlog in distributing resources that were made available 
in 2003 and 2004 by the Congress to the Department of Homeland 
Security, you haven't received them and you haven't been given 
a plan for when you are going to receive them and what you are 
supposed to do with them, so I think you need to put on the 
record what impact this has had, what you have not been able to 
do because that money has not gotten to where it was intended 
to go. Let me start with Jim Schwartz.
    Mr. Schwartz. Well, Congressman, as we said in the earlier 
testimony, there were a lot of difficulties in the front end of 
this because the locals were not as involved as they could have 
been, as they should have been with the process. It came from 
the top down. The Senior Policy Group took information from our 
homeland security assessment and developed a strategy and then 
developed a funding scheme, carved up that original $60 million 
and it was only late in the process that I think we had enough 
representation come to the table to give the local perspective. 
I would defer to Mr. Griffin or Dr. Brown on this because they 
both operated as chief administrative officials.
    The process has improved now, I believe, but I would say 
that I think we are asking an enormous amount of time for 
people at their level, of their stature to be in long meetings 
deciding how we are going to be spending some of this money. 
The structure, the foundation for this out of the National 
Capital Region Office to support the decisionmaking process 
doesn't seem to be there. Again, I think it is calling on the 
locals to commit an awful lot of senior time to make what 
seemed to me to be lower level decisions.
    Mr. Moran of Virginia. I want to turn to Tony next but what 
role has COG had because we do subsidize the Council of 
Governments and they do have a committee that pulls together 
police chiefs, the public safety people, fire and so on. Has 
COG been a part of this regional coordination effort?
    Mr. Griffin. Yes, if I may, Congressman. COG has played a 
significant role as convenor and as a support agency for the 
convening of the regional jurisdictions. It has been handled 
essentially on two levels. One, it has been handled at the 
level of the board of directors and their authorization of the 
original task force which created the regional template for 
emergency response and their subsequent creation of the 
Emergency Preparedness Council.
    The other committee structure of COG has been doing the 
grunt work if you will in terms of regional preparedness under 
the direction of the Chief Administrative Officers. The Fire 
Chiefs Committee, the Police Chiefs Committee, the Health 
Directors Committee, the Emergency Managers Committee, we have 
even created a Public Information Officer Committee, 
recognizing that there are many players involved in this and 
they are all convening on a regular basis, at least monthly. In 
many instances the CAOs have either had all day meetings or 
have scheduled extra meetings where the subject matter has only 
been homeland security. In fact, to some extent, we have been 
setting aside other critical regional issues to address the 
homeland security.
    One of the challenges for us and I think we are getting 
better at it but partly the friction that occurred between the 
levels of government and the locals feeling because we are 
first responders and because we have had some practical 
experience, that we ought to have more of a role, those roles 
have been substantially worked out and the Senior Policy Group 
which includes Mr. Lockwood and included Michael Byrne, his 
predecessor, and Ken Wahl, the interim as well as the State 
representatives have been meeting on a regular basis to get a 
handle on what our issues and our priorities are.
    From a county perspective, I have to tell you the way I 
have approached it has not been one which is dependent on the 
Federal funding or to some extent, even, the State funding that 
comes because of the Federal funding. We have worked hard in 
the county to try to identify what we thought our priorities 
were and what the gaps were in our capability to respond and 
then have identified how we are going to address that.
    In my testimony I made reference to our emergency 
operations center. Our situation is similar to that of Prince 
George's in that our current emergency operations center is in 
a 50 year old elementary school with two elementary school 
classrooms designated for purposes of emergency management. 
That works fine when we were dealing with a hurricane once 
every 30 years. It does not work in this environment.
    Likewise, our emergency communications center is in that 
same facility. We have outgrown it. The technology cannot be 
supported by the facility and therefore, we are building a new 
facility which we expect to open in the fall of 2007. The price 
tag for that facility is $98 million. It takes a lot of effort 
on our part to figure out how to do that. That is going to be 
county funded. We are looking to the Federal Government in the 
context that they can give us some assistance in terms of the 
equipment but we have made the decisions on the basis of our 
local capacity to fund these programs and we prioritize them on 
the basis of what is most critical and we will fund those 
whether we get any Federal money or not. If we get Federal 
money or if we get State money, then we start applying that to 
those other priorities that we consider critical but are less 
critical than what we can move ourselves through our own 
financial processes.
    Mr. Moran of Virginia. I guess that is about as good an 
answer as we could get but I think we have sent the message to 
Mr. Lockwood pretty loud and clear.
    Chairman Tom Davis. I think he heard that.
    Mr. Moran of Virginia. The red light has been on for some 
time, so thanks for your indulgence, Mr. Chairman, and thanks 
for the hearing.
    Chairman Tom Davis. Jim, thank you very much.
    Mr. Schrock, you have a couple of followups?
    Mr. Schrock. I do. Thank you, Mr. Chairman, and I share the 
exact same frustrations as Mr. Moran does and obviously you all 
do too.
    It seems there are so many layers of communications in 
there. When the balloon goes up, who in God's name knows who to 
report to whom. It seems to me that the folks in Arlington 
County may not be using the same sort of symbology or equipment 
as the folks in Prince William County. In the military now, we 
are talking about interoperability where the Army can talk to 
the Air Force and Air Force can talk to the Marine Corps and 
the Marine Corps can talk to everybody. When one symbol pops 
up, they all know what it means. The same thing might work with 
you all if you have the same kind of equipment so everybody is 
talking off the same sheet of music should we have these 
problems again.
    I agree with what I have heard that maybe the Federal 
Government needs a set of standards but whenever I hear the 
Federal Government getting involved in anything I just cringe 
because the localities know it is probably going to mean 
unfunded mandates for them. We might need to pass legislation 
to give a framework to the localities and let the localities 
build it based on their territory and the way they see things 
if something should happen and if we are doing mandates, then 
we need to fund them. For you all to have to pay $98 million, 
obviously that is just for the building, not for the insides, 
not the equipment, there is something really wrong there.
    Let me ask would it be possible for the Federal Government 
to consider assigning what we could call staff 
counterintelligence officers to prioritize States' own homeland 
security programs? They could act as a designated liaison 
between the State DHS and the intelligence community, in other 
words an NCIS agent could be assigned to Annapolis to work with 
Dennis Schrader, one could be assigned to Richmond to work with 
George Foresman on two or three rotational tours as an 
intelligence link between the Federal Government and the 
States? Is something like that possible or is that just adding 
another layer of bureaucracy that I can't stand, frankly, 
putting in another layer of bureaucracy that you don't need. 
Would that be something that would give you the link to the 
intelligence community here that you need or is that just 
overreaching, you want us to stay out of your hair?
    Mr. Schwartz. I would have to say I would rather see 
funding come to support our JTTF representation and if I could 
make the observation that in and of itself coming from a fire 
chief is a pretty good indication of the extent of our 
collaborative efforts here in the region.
    I think if you funded the JTTF positions, we would get the 
same thing. The homeland security contacts in the State already 
get the intelligence information from the Federal Government 
through DHS, so I think they are pretty well satisfied. You 
will end up with a situation that Mr. Griffin described earlier 
in that his police chief has to be rather circumspect in giving 
him any information of value. I think we would have another 
layer that would be relatively useless.
    Mr. Schrock. I was just thinking out loud. The last thing 
we need, the last thing people who sit on this level need to do 
is continue creating more layers of burden for you all. We need 
to make it as simple as possible and let you all work together 
to make sure you can talk from the same sheet of music. I share 
your frustration and I certainly share Mr. Moran's frustration 
as well.
    Again, thank you all for what you do. It is not easy. It is 
tough.
    Mr. Griffin. If I could add a quick point on the 
intelligence part and that is just like being first responders 
in terms of intelligence, our people know our communities 
better than the Federal Government knows our communities. I 
think if they can give us additional assistance, I don't 
normally fund that sort of thing but I recognize the importance 
to the region and there is an obligation as the largest 
jurisdiction in the metropolitan area to take a lead on 
something like that, so we have done that. We have stepped up 
to the plate but I think as Chief Schwartz indicated, if we 
could get some assistance in that area, that would be very 
helpful.
    Mr. Schrock. Thank you all very much.
    Chairman Tom Davis. Thank you very, very much. It has been 
a very helpful hearing for us and the record.
    The hearing is adjourned.
    [Whereupon, at 1:15 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statements of Hon. Wm. Lacy Clay and Hon. 
Danny K. Davis follow:]

[GRAPHIC] [TIFF OMITTED] T5626.062

[GRAPHIC] [TIFF OMITTED] T5626.063

[GRAPHIC] [TIFF OMITTED] T5626.064

[GRAPHIC] [TIFF OMITTED] T5626.065

[GRAPHIC] [TIFF OMITTED] T5626.066

                                 <all>

</pre></body></html>
